<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tim Johnson (chairman) presiding.
    Present: Senators Johnson, Pryor, Collins, and Murkowski.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENT OF HON. LOUIS JEROME (JERRY) HANSEN, DEPUTY 
            ASSISTANT SECRETARY OF THE ARMY (STRATEGIC 
            INFRASTRUCTURE) AND SENIOR OFFICIAL 
            PERFORMING DUTIES OF ASSISTANT SECRETARY OF 
            THE ARMY (INSTALLATIONS AND ENVIRONMENT)
ACCOMPANIED BY:
        JOSEPH F. CALCARA, DEPUTY ASSISTANT SECRETARY OF THE ARMY 
            (INSTALLATIONS AND HOUSING)
        BRIGADIER GENERAL JIM BOOZER, DIRECTOR OF OPERATIONS, OFFICE OF 
            THE ASSISTANT CHIEF OF STAFF (INSTALLATION MANAGEMENT)
        MAJOR GENERAL RAY CARPENTER, ACTING DIRECTOR, ARMY NATIONAL 
            GUARD
        JAMES SNYDER, ASSISTANT CHIEF, ARMY RESERVE

                OPENING STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. This hearing will come to order.
    I welcome everyone to today's hearing to discuss the 
President's fiscal year 2011 budget request.
    Today we will hear from two panels of witnesses 
representing the Army and the Air Force and their Reserve 
components.
    The first panel will be the Army. Secretary Hansen, 
Secretary Calcara, General Boozer, General Carpenter, Mr. 
Snyder, thank you for coming today. General Carpenter, I am 
always happy to see a fellow a South Dakotan. We will look 
forward to your testimony.
    Senator Hutchison has asked me to let you know she has a 
conflict this morning and will not be able to attend this 
hearing, but I will submit her statement and questions for the 
record.
    [The statement follows:]

           Prepared Statement of Senator Kay Bailey Hutchison

    Good afternoon, Mr. Chairman. Thank you for holding this hearing 
today as we examine the President's budget request for military 
construction and family housing for the Department of the Army and the 
Department of the Air Force. I would also like to welcome our witnesses 
and guests: Mr. Hansen, Mr. Calcara, Major General Carpenter, General 
Boozer and Mr. Snyder. I look forward to discussing military 
construction and family housing needs with you.
    I am very pleased that we are nearing completion of the Base 
Realignment and Closure program. The Department is entering its final 
year of Milcon before the September 2011 statutory deadline for all 
BRAC projects. For the last several years, I have emphasized the 
importance of fully funding and effectively implementing the BRAC 
program, which has evolved into a $32 billion Milcon program for the 
Department.
    Mr. Hansen and General Boozer, as we begin the budget process for 
fiscal year 2011, the Department of the Army is facing several 
challenges within its military construction budget, such as changes to 
our Global Defense Posture, which we will discuss shortly, and changes 
to the Army's recapitalization strategy. As you have heard me say many 
times, I believe we should all strive to station as many of our troops 
as realistically possible within the United States, and in modern 
facilities we can all be proud of.
    Overall, the Department of the Army budget proposes a 9.7 percent 
increase, and the Department of the Air Force budget proposes a 7.2 
percent decrease. There are big differences in these accounts, and 
considering the big disparities in the Guard and Reserve accounts, I am 
anxious to discuss the rationale for these budget decisions. I want to 
be sure we are providing our soldiers, sailors, airmen, and marines 
with the infrastructure they and their families deserve.

                         GLOBAL DEFENSE POSTURE

    Another issue I hope to discuss today is our Global Defense Posture 
as it relates to our Milcon requirements. First, I hope our witnesses 
will explain the DOD policy of Building Partnership Capacity in Europe. 
I hope by partnership you mean that our allies will share in the 
financial burden as we build military infrastructure in Europe. Our 
specified overseas Milcon request is $2 billion for projects not 
directly related to the war in Afghanistan. When you add in projects 
for Afghanistan, overseas Milcon totals $4 billion. That is huge.
    As I have said many times, I believe we should be restationing our 
troops in the United States, but the proposed 2011 budget contains a 
Milcon request for $513 million for Germany, which includes $186 
million for Wiesbaden Army Base and $75 million for four new barracks 
at Grafenwoehr--a training facility--just as examples. As the services 
consolidate our forces in fewer facilities to save on operational 
costs, I know we have to build some new consolidated facilities, but I 
would like our witnesses today to give us the rationale behind these 
proposals and a sense that there is a strategy driving our Milcon 
requirements and not the other way around.
    In Korea, the Department is looking at ``tour normalization,'' 
which would greatly increase the number of U.S. citizens on the 
peninsula and require expanding our support infrastructure in Korea. I 
understand that you are currently executing phase 1 of a 3-phase 
consolidation operation and that phases 2 and 3 will require more 
substantial U.S. funding. I look forward to your remarks concerning the 
costs of future infrastructure requirements and the Korean Government's 
financial contributions associated with this consolidation effort.

                    QUADRENNIAL DEFENSE REVIEW (QDR)

    The Quadrennial Defense Review recommends retaining four brigade 
combat teams in Europe, rather than the current stationing plan to 
reduce the number to two. I have raised this issue before with the 
Secretary of Defense and the Army Chief of Staff because I am concerned 
that this decision will disrupt our commitment to return our forces to 
the United States, where we can provide better training and a better 
quality of life for them and their families. I am concerned it will 
also disrupt the extensive military construction already in progress at 
Fort Bliss. The sooner we can get our service-men and -women home and 
into new, state-of-the-art facilities, the sooner we will live up to 
our commitment to provide for them in a way that is commensurate with 
their service to our Nation. Our troops can deploy to any region of the 
world from the United States just as easily as they can from Europe, 
and in some cases more so. We need to return our troops to the United 
States, but just as importantly, we need to be fiscally responsible 
when we decide on a strategy to do this.

                  ARMY NATIONAL GUARD AND ARMY RESERVE

    The services have always maintained that the Reserve components 
play a vital role in meeting our defense mission and in enabling us to 
manage the stress on the Active Force. The QDR calls them ``equal 
partners''. The fiscal year 2011 budget request reduces funding for the 
Army Reserve by 26 percent, the Air National Guard by 52 percent, and 
the Air Force Reserve by 93 percent. I do not recall the Air Force 
Reserve only receiving one project in the entire budget request. Every 
year Congress has to add programs to these accounts because the 
Department, in my opinion, does not fund them as robustly as it should. 
This is a challenge. I look forward to the Army's remarks concerning 
the impacts of these budgetary reductions.

                                CLOSING

    The budget before us poses some challenges, but I do commend the 
Department of the Army for making quality of life a top priority. Even 
if we discuss different ways to best support our troops, we all have 
the same goal in mind and that is keeping our soldiers first.
    Thank you again Mr. Chairman for holding this hearing. I look 
forward to discussing these and other issues with our witnesses.

    Senator Johnson. The Army's 2011 budget request for Active 
and Reserve Military Construction and Family Housing, Base 
Realignment and Closing, and Overseas Contingency Operations is 
$7.9 billion. Included in this budget is a historically high 
funding request for the Army Guard, $873.7 million. I commend 
the Army for investing so heavily in the Guard and I hope you 
will bring the same commitment to the Army Reserve in future 
budget requests.
    This is also the final year to execute the 2005 BRAC 
program. I understand that the Army has several projects that 
could be at risk of missing the statutory deadline. I hope we 
will receive an update on the status of these projects.
    Last year, the subcommittee provided additional funding to 
expand the homeowners assistance program which I have a keen 
interest in. I hope that you will be able to update us on the 
progress of the program and let us know how well the funding is 
being executed.
    Secretary Hansen, I look forward to your opening statement, 
but before you begin, Senator Collins, would you care to make 
an opening statement?
    Senator Collins. Thank you, Mr. Chairman. You have 
explained that the ranking member, due to an unscheduled event, 
is unable to join you today. So I am very happy to act in her 
capacity as we review the fiscal year 2011 Milcon request for 
the Army and the Air Force. So I look forward to working with 
you. Thank you.
    Senator Johnson. Thank you, Senator Collins.
    Secretary Hansen, again I welcome you and your colleagues 
to this subcommittee. I understand that yours will be the only 
opening statement. Your prepared statement will be placed in 
the record, so I ask you to summarize your remarks to allow 
adequate time for questions. Secretary Hansen, please proceed.

                 SUMMARY STATEMENT OF HON. JERRY HANSEN

    Mr. Hansen. Thank you, Mr. Chairman. We will be brief.
    Chairman Johnson, Senator Collins, distinguished members of 
the subcommittee, I am Jerry Hansen, the designated senior 
official currently performing the duties of the Assistant 
Secretary of the Army for Installations and Environment. It is 
my pleasure to appear before you today on behalf of the 
Secretary of the Army to discuss the Army's fiscal year 2011 
military construction, base realignment and closure, and family 
housing budget requests.
    I would like to first thank you for your continued 
consistent support to our soldiers, families, and Army 
civilians serving the Nation across the globe. The Army's 
strength lies in the people who serve. We work with your ever-
important support to ensure that we provide a quality of life 
commensurate with the quality of their service.
    I would also like to thank you for the legislative 
expansion of the housing assistance program. As the DOD 
executive agent for the program, I am pleased to report that in 
the first 6 months since the expanded HAP authority was 
implemented, we have paid benefits of over $125 million to more 
than 1,000 military families. The program has and will continue 
to save many families from financial ruin. Currently we believe 
we have enough funding on hand, but we do continue to see 
growth in eligible applicants.
    Our Milcon budget request for fiscal year 2011 represents 
the minimum level of funding required to provide the Army with 
the facilities needed to support the mission accomplishment 
while preserving an All-Volunteer Force. We remain an Army at 
war that continues its largest transformation since World War 
II. As we withdraw forces from Iraq, build up forces in 
Afghanistan, and then begin that drawdown as well, we are 
simultaneously completing transformation to a modular brigade-
centric force, growing the Army and completing both global 
defense posture realignments and Base Realignment and Closure 
2005.
    In addition, we remain committed to our previously stated 
timelines of funding adequate barracks for all permanent party 
soldiers by fiscal year 2013 and trainees by fiscal year 2015 
with occupancy completed 2 years later.
    Our fiscal year 2011 budget request supporting these 
initiatives totals $7.9 billion across all components. This 
reflects an expected decrease in BRAC 2005 appropriation 
requirements of about $3 billion from that of last year, as we 
anticipated that fiscal year 2010 would be the final year of 
BRAC construction. The Army remains fully committed to meeting 
the BRAC timeline, intensely managing those remaining actions 
with tight construction schedules. Funds requested in fiscal 
year 2011 will be used units and personnel and to outfit our 
new facilities as they come on line. With full funding, we 
expect all actions to be completed on time without degradation 
of training or readiness, although we recognize that fourth 
quarter fiscal year 2011 will be extremely busy.
    Last year, you appropriated $30 million in additional 
military construction funding for both the Army Reserve and 
National Guard. We thank you for that initiative. The funds are 
being used to address critical requirements. Included in the 
overall fiscal year 2011 request is $874 million of military 
construction for the Army National Guard and $318 million for 
the Army Reserve. Collectively, this represents 149 percent 
increase from the fiscal year 2010 request for our reserve 
components, a very significant increase for the Guard, but a 
slight decrease, as you indicated, for the Army Reserve. This 
is balanced, however, by an increase in our sustainment, 
restoration, and modernization funding for the Reserves. This 
funding will ensure that the Guard and Reserve are able to 
continue transformation to operationalized forces. I cannot 
overstate how important the readiness and availability of our 
reserve components remains to our national defense.
    Another high priority for fiscal year 2011 is energy 
security and implementing energy efficiencies in facility 
construction. As stewards of a significant portion of our 
national resources, the Army requires that new military 
construction projects attain a minimum of leadership in energy 
and environmental design, Lead Silver standards, that we 
achieve compliance with energy efficiency mandates and we 
incorporate smart building technologies where cost effective.
    In addition, water conservation is being pursued through a 
comprehensive program which includes water management plans, 
adoption of best management practices, establishment of 
waterless urinals as a standard in new Army construction, 
increased metering, and improved asset management of water 
distribution systems. We take energy conservation very 
seriously and continue to look for ways to implement innovative 
energy initiatives.
    Finally, I would like to address the concerns of the 
subcommittee regarding the return of two brigade combat teams 
from Europe to the United States. Currently, the Army cannot 
provide specific plans for the BCTs as we await guidance from 
the Secretary of Defense on the strategic posture in Europe. 
This guidance will allow the Army to review current plans for 
returning these brigades to the United States and make any 
adjustments that might be required. None of these projects in 
our fiscal year 2011 request are planned to support keeping 
brigades in Europe. There will be minimal impact to State-side 
projects should the decision be made to keep one or both 
brigades in Europe. Once the decision is made, our out-year 
military construction programs will be adjusted accordingly.
    I am accompanied today by Mr. Joe Calcara, the Deputy 
Assistant Secretary of the Army for Installations and Housing; 
Brigadier General Jim Boozer, Director of Operations from the 
Office of the Assistant Chief of Staff for Installation 
Management; Major General Ray Carpenter, Acting Director, Army 
National Guard; and Mr. James Snyder, Assistant Chief of the 
Army Reserve.

                           PREPARED STATEMENT

    We thank you again for the opportunity to appear before you 
this morning and for your continued support to the Army, and we 
look forward to your questions.
    [The statement follows:]

  Prepared Statement of Hon. Jerry Hansen; Joseph F. Calcara; General 
    James C. Boozer; General Raymond W. Carpenter; and James Snyder

    Mr. Chairman and members of the subcommittee, on behalf of the more 
than 1 million Active, Guard, and Reserve soldiers, their families, and 
the civilians of the United States Army, I welcome the opportunity to 
discuss the Army's Military Construction, Family Housing, and Base 
Realignment and Closure budget requests for fiscal year 2011.
    The Army's strength is its soldiers--and the families and Army 
civilians who support them. I would like to start by thanking you for 
your support to our soldiers and their families serving our Nation 
around the world. They are and will continue to be the centerpiece of 
our Army, and their ability to perform their missions successfully 
depends upon the staunch support of the Congress.
    Our Nation has been at war for nearly 9 years. The Army continues 
to lead the war efforts in Afghanistan and Iraq, as well as in defense 
of the homeland and in support of civil authorities in responding to 
domestic emergencies. Over time, these operations have expanded in 
scope and duration, stressing our All-Volunteer Force and straining our 
ability to maintain strategic depth. During this period, the Congress 
has responded to the Army's requests for resources, and that commitment 
to our soldiers, their families, and civilians is deeply appreciated. 
Continued timely and predictable funding is critical as the Army 
continues to fight two wars, meet other operational demands, sustain an 
All-Volunteer Force, and prepare to protect against future threats to 
the Nation.

                                OVERVIEW
                      FACILITIES STRATEGIC CONTEXT

    The Army continues its largest organizational change since World 
War II, as it transforms to a Brigade centric modular force and grows 
the force to achieve an Active component end strength of 547,400, a 
National Guard end strength of 358,200, and an Army Reserve end 
strength of 206,000 soldiers. At the same time, we are restationing 
about one-third of the force through a combination of Base Closure and 
Realignment (BRAC) and Global Defense Posture Realignment (GDPR) 
actions.
    The Army is executing a tightly woven, operationally synchronized 
plan integrating BRAC, GDPR, and Grow the Army (GTA); facilitated by 
Military Construction. The strategy includes aligning facilities to 
support a CONUS based Army Modular Force (AMF) structured expeditionary 
Army; completing facilities to implement and comply with BRAG 2005 law 
by 2011; completing GDPR by 2013; completing GTA by 2013; and 
completing AMF new unit facilities builds. Facilities modernization for 
AMF units converted from the legacy force structure extends beyond 
2015.

               ARMY IMPERATIVES AND FACILITY INITIATIVES

    The fiscal year 2011 Milcon request is crucial to the success of 
the Army's strategic imperatives to sustain, prepare, and transform the 
force. The Army has developed military construction facility 
initiatives that support the Army imperatives.
Sustain
    To sustain the force, the following initiatives provide for the 
recruitment and retraining of soldiers; care of soldiers, families, and 
civilians; care of wounded warriors; and the support of families of 
fallen comrades:
    Family Housing.--Provides housing services, preserves the balance 
of military owned housing and the distinction of privatized on-post 
housing commensurate with U.S. civilian community standards.
    Barracks.--Provide quality barracks for Army soldiers including: 
permanent party, training, and warriors transition complexes. We owe 
single soldiers the same quality of housing that we provide married 
soldiers. Modern barracks are shown to significantly increase morale, 
which positively impacts readiness and quality of life across all 
components. The Army intends to buyout the original inadequate 
permanent party barracks by 2013 with full occupancy by 2015, and will 
continue to budget to maintain all permanent party barracks as 
adequate.
    Army Medical Action Plan.--Provide command and control, primary 
care and case management for Warriors in Transition (WT) to establish a 
healing environment that promotes the timely return to the force or 
transition to civilian life.
    Soldier Family Action Plan.--Provides soldiers and families a 
quality of life commensurate with their service; provides families a 
strong, supportive environment where they can thrive; and provide 
quality, standardized facilities.
Prepare
    To Prepare our Army to meet the challenges of the current 
operations and the full spectrum of combat operations, the Army has 
funded projects in the Grow the Army, Mission and Training, and Trainee 
Barracks initiatives.
    Grow the Army.--Provide facilities to support the increase of the 
Army end strength to 1,111.6K (74.2K increase) across all components to 
fill key force capability shortfalls and increase Active component 
dwell time. GTA facilities include operations, maintenance, and 
training facilities; barracks, and facilities to improve the quality of 
life for soldiers, families, and civilians in the Active Army, Army 
Reserve and Army National Guard. The Army's strategy is to complete all 
facilities requirement to support this initiative by fiscal year 2013.
    Mission and Training.--Provides facilities to support unit 
operations, maintenance, and training. Ranges and training land to 
support individual, and unit collective training in support of the Army 
Force Generation (ARFORGEN) training cycle are included in Mission and 
Training facilities.
    Training Barracks.--Provides initial entry and advance individual 
training quality barracks and eliminates all inadequate trainee 
barracks spaces. The goal is to fund all trainee barracks requirements 
by fiscal year 2015 and full occupancy of the barracks in fiscal year 
2017.
    Operational Readiness Training Complex.--Fiscal year 2011 is the 
start of the Army's investment in unit facilities in support of the 
ARFORGEN training cycles of the Active and Reserve components. ORTCs 
are complexes with operations, maintenance and storage facilities, 
barracks, dining facility, and equipment parking.
Transform
    To meet the demands of the 21st century, the Army is transforming 
via the AMF, GDPR, and BRAC initiatives. Collectively, these 
initiatives allow the Army to shape and station forces to provide 
maximum flexibility.
    Army Modular Force.--The Army continues to reorganize the Active 
and Reserve components into standardized modular organizations, 
increasing the number of Brigade Combat Teams (BCTs) and support 
Brigades to meet operational requirements and create a more deployable, 
versatile and tailorable force.
    Global Defense Posture Realignment.--The GDPR initiative ensures 
Army Forces are properly positioned worldwide to support our National 
Military Strategy and to support the mission in Afghanistan. GDPR will 
relocate over 48,000 soldiers and their families from Europe and Korea 
to the United States by 2013. As part of the fiscal year 2011 program, 
the Army is requesting $188.7 million to construct facilities in 
Bagram, Afghanistan, and Forts Benning, Bliss, and Riley.
    Base Realignment and Closure.--BRAC 2005 enables the Army to 
reshape the infrastructure supporting the operating force, the 
generating force, the Reserve component and enhance the repositioning 
of those forces making them more relevant and combat ready for the 
Combatant Commander.

                    FISCAL YEAR 2011 MILCON OVERVIEW

    The Army's fiscal year 2011 Military Construction and Overseas 
Contingency Operations budget requests include $7.9 billion for 
Military Construction, Army Family Housing, and BRAC appropriations and 
associated new authorizations.
    The details of the Army's fiscal year 2011 request follow:

----------------------------------------------------------------------------------------------------------------
                                                                           Authorization of
         Military construction authorization             Authorization      appropriations       Appropriation
                                                            request             request             request
----------------------------------------------------------------------------------------------------------------
Military Construction Army (MCA)....................      $3,665,662,000      $4,078,798,000      $4,078,798,000
Military Construction Army National Guard (MCNG)....         836,601,000         873,664,000         873,664,000
Military Construction Army Reserve (MCAR)...........         289,275,000         318,175,000         318,175,000
Army Family Housing Construction (AFHC).............          55,329,000          92,369,000          92,369,000
Army Family Housing Operations (AFHO)...............  ..................         518,140,000         518,140,000
BRAC 95 (BCA).......................................          73,600,000          73,600,000          73,600,000
BRAC 2005 (BCA).....................................       1,012,420,000       1,012,420,000       1,012,420,000
Overseas Contingency Operations (OCO)...............         761,950,000         929,996,000         929,996,000
Homeowners Assistance Program (HAP).................          16,515,000          16,515,000          16,515,000
                                                     -----------------------------------------------------------
      TOTAL.........................................       6,711,352,000       7,913,677,000       7,913,677,000
----------------------------------------------------------------------------------------------------------------

                    FISCAL YEAR 2011 BUDGET REQUEST
                      MILITARY CONSTRUCTION, ARMY

    The Active Army fiscal year 2011 Military Construction request for 
$4,078,798,000 (for appropriation and authorization of appropriations) 
supports the Army Imperatives of Sustain, Prepare and Transform.
    Mission and Training ($866 million).--Operations, maintenance, and 
training facilities and ranges are the cornerstones to ``Prepare'' the 
Army for current operations. The fiscal year 2011 request includes $269 
million for operations facilities, $65 million for maintenance 
facilities, $212 million for ranges and $213 million for training 
facilities. Utilities and other support facilities complete the mission 
and training request at $107 million.
    Army Modular Force (1,268 million).--The fiscal year 2011 request 
of $1.584 billion will provide permanent operations and maintenance 
facilities and barracks to support the conversion of existing forces 
into new modular force units in the Active Army (1.268 billion) and 
Army National Guard (0.316 billion). The Army strategy is to use 
existing facility assets where feasible and program new construction 
projects when existing facilities are inadequate.
    Grow the Army ($698 million).--The Grow the Army request in fiscal 
year 2011 is for 34 projects. The total includes $148.7 million for 
maintenance facilities, $215.4 million for operations facilities, $259 
million for Barracks, and $74.6 million for training ranges and 
training support facilities. The Army's gap analysis for Grow the Army, 
following the fiscal year 2009 Secretary of Defense decision on the 
number of Brigades, confirmed that these facilities were essential to 
support growth in the Army's combat support and combat service support 
force structure and establish the appropriate training support 
infrastructure.
    Barracks Modernization ($891 million).--The Army is in the 18th 
year of modernizing permanent party barracks to provide about 148,000 
single enlisted soldiers with quality living environments. Because of 
increased authorized strength, the requirements for barracks 
modernization have increased in several locations. The fiscal year 2011 
request will provide for 5,115 new permanent party barracks spaces that 
will meet DOD's ``1+1'' or equivalent standard and eliminate common 
area latrines. These units provide two-soldier suites, increased 
personal privacy, larger rooms with walk-in closets, new furnishings, 
adequate parking, landscaping, and unit administrative offices 
separated from the barracks. The $891 million in barracks projects 
includes projects requested in the GTA, GDPR, and AMF initiatives. We 
are on track to fully fund this program by fiscal year 2013. The last 
inadequate permanent party spaces will be removed after the new 
barracks are fully occupied in fiscal year 2015.
    Trainee Barracks Modernization ($191 million).--The $350 million 
provided by the Congress in the 2010 appropriations for trainee 
barracks is greatly appreciated. The additional funding will accelerate 
the Army's ability to provide necessary quality barracks. The request 
in fiscal year 2011 will provide 1980 new training barracks spaces for 
our soldiers. Six trainee barracks are going to be constructed at four 
installations (Forts Benning, Bragg, Jackson, and Leonard Wood).
    Warrior in Transition ($18 million).--The WT complex at Fort Eustis 
completes the Army's plan for WT complexes in the United States.
    Overseas Construction.--Included in this budget request are high-
priority overseas projects at enduring locations. In Germany, we are 
requesting funds for barracks at Grafenwoehr and Rhine Ordnance, a 
vehicle maintenance shop and a physical fitness center in Ansbach, an 
information processing center, sensitive compartmented information 
facility, command and battle center and an access control point in 
Wiesbaden. In Korea, we are requesting funds to further our relocation 
of forces on the peninsula. This action is consistent with the Land 
Partnership Plan agreements entered into by the United States and 
Republic of Korea Ministry of Defense. Our request for funds in Italy 
continues construction for a BCT.
    Other Support Programs ($273 million).--The fiscal year 2011 budget 
includes $222 million for planning and design. As executive agent, the 
Army also provides oversight of design and construction for projects 
funded by host nations. The fiscal year 2011 budget requests $28 
million for oversight of host nation funded construction for all 
Services in Japan, Korea, and Europe. The budget request also contains 
$23 million for unspecified minor construction to address unforeseen 
critical needs or emergent mission requirements that cannot wait for 
the normal programming cycle.
    Incremental Funding ($140 million).--We are requesting the second 
increment of funding, $59.5 million, for the Command and Battle Center 
at Wiesbaden, Germany. In addition, we are requesting the first phase, 
and second increment of funding, $30 million, for the Aviation Task 
Force Complex at Fort Wainwright, Alaska. The budget also includes $25 
million for a Brigade Complex-Operations support facility and $26 
million for a Brigade Complex-Barracks/Community, both projects at 
Vicenza, Italy.

                 MILITARY CONSTRUCTION, NATIONAL GUARD

    The fiscal year 2011 request for $873,664,000 (for appropriation 
and authorization of appropriations) is focused on Army Modular Force, 
Mission and Training, Grow the Army, planning and design and 
unspecified minor military construction represents the largest Milcon 
budget ever requested by the Army National Guard.
    Mission and Training.--In fiscal year 2011, the Army National Guard 
is requesting $440.5 million for 24 projects which will support the 
preparation of our forces. These funds will provide the facilities our 
soldiers require as they train, mobilize, and deploy. Included are four 
Training/Barracks Facilities, nine Range projects, four Maintenance 
Facilities, one United States Property and Fiscal Facility, and six 
Readiness/Armed Forces Reserve Centers.
    Army Modular Force.--Our budget request also includes $316.5 
million for 16 projects in support of our modern missions. There are 
five Readiness Centers, one Armed Forces Reserve Center, five 
Maintenance Facilities, four Unmanned Aircraft System Facilities and 
one Aircraft Parking project to provide for modernized facilities.
    Grow the Army.--To support the Army National Guard end strength 
increase, $79.6 million is requested to construct eight Readiness 
Centers. The new Readiness Centers will house newly activating units to 
address the continued high levels of force deployment.
    Other Support Programs.--The fiscal year 2011 Army National Guard 
budget also contains $25.6 million for planning and design of future 
projects and $11.4 million for unspecified minor military construction 
to address unforeseen critical needs or emergent mission requirements 
that cannot wait for the normal programming cycle.

                  MILITARY CONSTRUCTION, ARMY RESERVE

    The Army Reserve fiscal year 2011 Military Construction request for 
$318,175,000 (for appropriation and authorization of appropriations) is 
for Preparation, Transformation, other support, and unspecified 
programs.
    Mission and Training Projects.--In fiscal year 2011, the Army 
Reserve will invest $76.5 million to prepare our soldiers for success 
in current operations. Included in the mission and training projects 
are, four ranges, a tactical vehicle wash rack, a maintenance and 
equipment storage facility and an Annual Training/Mobilization Barracks 
Grow The Army. The Army Reserve transformation from a strategic reserve 
to an operational force includes converting 16,000 authorizations from 
generating force structure to operational force structure from fiscal 
years 2009 through 2013. In fiscal year 2011, the Army Reserve will 
construct 17 Reserve operations complexes in 11 States, with an 
investment of $212.8 million to support the transformation. These 
projects will provide operations, maintenance, and storage facilities 
for over 3,300 soldiers in 66 newly activating combat support and 
combat service support units and detachments.
    Other Unspecified Programs.--The fiscal year 2011 Army Reserve 
budget request includes $25.9 million for planning and design for 
future year projects and $3.0 million for unspecified minor military 
construction to address unforeseen critical needs or emergent mission 
requirements that cannot wait for the normal programming cycle.

                    ARMY FAMILY HOUSING CONSTRUCTION

    The Army's fiscal year 2011 family housing construction request is 
$92.4 million for authorization of appropriation, and appropriation. 
This year's budget continues our significant investment in our soldiers 
and their families by supporting our goal to continue funding to 
sustain military-owned housing and eliminate remaining inadequate 
military-owned at enduring overseas installations.
    The fiscal year 2011 new construction program uses traditional 
military construction to provide 64 new homes for families with a $34.3 
million replacement project at Baumholder, Germany. The Army also 
requests $21 million for the completion of the supporting 
infrastructure for two projects authorized and appropriated in fiscal 
year 2004 at Fort Wainwright, Alaska.
    The fiscal year 2011 construction program also provides $35 million 
to make adjustments to two existing Residential Communities Initiative 
(RCI) family housing privatization projects at Fort Eustis, Virginia 
and Carlisle Barracks, Pennsylvania.
    In fiscal year 2011, we are also requesting $2.0 million for final 
design of fiscal year 2011 family housing projects and to initiate 
design of 2012 family housing construction projects, as well as for 
housing studies and updating standards and criteria.
    Privatization.--The Residential Communities Initiative (RCI), the 
Army's housing privatization program, continues to provide quality 
housing which soldiers and their families can proudly call home. The 
Army is leveraging appropriated funds and existing housing by engaging 
in 50-year partnerships with nationally recognized private real estate 
development, property management, and home builder firms to construct, 
renovate, repair, maintain, and operate housing communities.
    The RCI program will include 44 locations, with a projected end 
state of over 85,000 homes--98 percent of the on-post family housing 
inventory in the United States. At the end of fiscal year 2010, the 
Army will have privatized all 44 locations. Initial construction and 
renovation at these 44 installations is estimated at $12.6 billion over 
a 3- to 14-year initial development period, of which the Army will 
contribute close to $2.0 billion. Although most projects are in their 
initial development periods, since 1999 through November 2009, our 
partners have constructed over 21,000 new homes, and renovated another 
16,000 homes.

                     ARMY FAMILY HOUSING OPERATIONS

    The Army's fiscal year 2011 Family Housing Operations request is 
$518,140,000 (for appropriation and authorization of appropriations). 
This account provides for annual operations, municipal-type services, 
furnishings, maintenance and repair, utilities, leased Family housing, 
demolition of surplus or uneconomical housing, and funds supporting 
management of the Military Housing Privatization Initiative. This 
request will support almost 17,000 Army-owned homes, at home and in 
foreign countries areas, as well as leasing more than 9,000 residences 
and providing government oversight of more than 80,000 privatized 
homes.
    Operations ($97.3 million).--The operations account includes four 
sub-accounts: management, services, furnishings, and a small 
miscellaneous account. All operations sub-accounts are considered 
``must pay accounts'' based on actual bills that must be paid to manage 
and operate Lily housing.
    Utilities ($69.6 million).--The utilities account includes the 
costs of delivering heat, air conditioning, electricity, water, and 
wastewater support for family housing units. The overall size of the 
utilities account is decreasing with the reduction in supported 
inventory.
    Maintenance and Repair ($120.9 million).--The maintenance and 
repair account supports annual recurring projects to maintain and 
revitalize family housing real property assets. Since most family 
housing operational expenses are fixed, maintenance and repair is the 
account most affected by budget changes. Funding reductions result in 
slippage of maintenance projects that adversely impact soldier and 
family quality of life.
    Leasing ($203.2 million).--The leasing program provides another way 
of adequately housing our military Families. The fiscal year 2011 
budget includes funding for 9,036 housing units, including project 
requirements for 1,080 existing section 2835 (``build-tolease''--
formerly known as 801 leases), 1,828 temporary domestic leases in the 
United States, and 6,128 leased family housing units in foreign areas.
    Privatization ($27.1 million).--The privatization account provides 
operating funds for management and oversight of privatized military 
family housing in the RCI program. RCI costs include civilian pay, 
travel, and contracts for environmental and real estate functions, 
training, real estate and financial consultant services and oversight 
to monitor compliance and performance of the overall privatized housing 
portfolio and individual projects.

                                BRAC 95

    Since Congress established the first Defense Base Closure and 
Realignment Commission in 1988 and then authorized the subsequent 
rounds in 1990, DOD has successfully executed four rounds of base 
closures to reduce and align the military's infrastructure to the 
current security environment and force structure. As a result, the Army 
estimates approximately $13.5 billion in savings through 2009--and 
nearly $1 billion in recurring, annual savings from prior BRAG rounds.
    The Army is requesting $73.6 million in fiscal year 2011 for prior 
BRAG rounds ($5.2 million to fund caretaking operations and program 
management of remaining properties and $68.4 million for environmental 
restoration) to address environmental restoration efforts at 147 sites 
at 14 prior BRAG installations. To date, the Army has spent $3.1 
billion on the BRAC environmental program for installations impacted by 
the previous four BRAC rounds. The Army has disposed of 183,637 acres 
(88 percent of the total acreage disposal requirement of 209,292 
acres), with 25,654 acres remaining.

                               BRAC 2005

    Under BRAG 2005, the Army will close 12 Active component 
installations, one Army Reserve installation, 387 National Guard 
Readiness and Army Reserve Centers, and eight leased facilities. BRAG 
2005 establishes Training Centers of Excellence, joint bases, a Human 
Resources Center of Excellence, and joint technical and research 
facilities. To accommodate the units relocating from the closing 
National Guard Readiness and Army Reserve Centers, BRAG 2005 creates 
125 multi-component Armed Forces Reserve Centers and realigns U.S. Army 
Reserve Command and control structure.
    With over 1,100 discrete actions required for the Army to 
successfully implement BRAC 2005, they must be carefully integrated 
with the Defense and Army programs of Grow the Army, GDPR, and Army 
Modular Force. Collectively, these initiatives allow the Army to focus 
its resources on installations that provide the best military value, 
supporting improved responsiveness and readiness of units. The 
elimination of cold war-era infrastructure and the implementation of 
modern technology to consolidate activities allow the Army to better 
focus on its core warfighting mission. These initiatives are a massive 
undertaking, requiring the synchronization of base closures, 
realignments, military construction and renovation, unit activations 
and deactivations, and the flow of forces to and from current global 
commitments. Results will yield substantial savings over time, while 
positioning forces, logistics activities, and power projection 
platforms to respond efficiently and effectively to the needs of the 
Nation.
    The Army fiscal year 2011 budget request for BRAC 2005 is $1,012.4 
million. The Army remains committed to achieving BRAG 2005 Law and is 
on track to do so. Our request is critical to the success of the Army's 
BRAC 2005 initiative and does not contain funding for new construction 
projects. The funding request includes $887.2 million in Operations and 
Maintenance (O&M) to support Civilian Permanent Change of Station 
(PCS), furnishings and equipment for completed BRAC projects, as well 
as support for facility caretaker requirements. An additional $51.7 
million is requested for information technology and capital equipment 
procurement to comply with the BRAG 2005 requirements.
    In fiscal year 2011, the Army will continue environmental closure 
and cleanup actions at BRAG properties. These activities will continue 
efforts previously ongoing under the Army Installation Restoration 
Program and will ultimately support future property transfer actions. 
The budget request for environmental programs is $73.5 million, which 
includes munitions and explosives of concern and hazardous and toxic 
waste restoration activities.

                    OVERSEAS CONTINGENCY OPERATIONS

    The fiscal year 2011 request includes $930 million to support 
Overseas Contingency Operations (OCO). The request funds non enduring 
mission projects critical to the support of deployed war fighters for 
example: troop housing, dining facilities, rotary wing airfield 
facilities, logistical and environmental facilities, command and 
control facilities, and force protection to ensure safe and efficient 
military operations in Afghanistan. A total of 48 projects fulfill the 
Department's immediate mission needs and urgent infrastructure 
requirements in theater for a total of $762 million. The OCO request 
provides $78.3 million for unspecified minor construction and $89.7 
million for planning and design.

                     HOMEOWNERS ASSISTANCE PROGRAM

    The Army is the DOD Executive Agent for the Homeowners Assistance 
Program (HAP); that is, the Army requests in its budget the funds 
needed by the DOD-wide program supporting all of the services. In 
normal times, this program assists eligible military and civilian 
employee homeowners by providing some financial relief when they are 
not able to sell their homes under reasonable terms and conditions 
because of DOD announced closures, realignments, or reduction in 
operations when this action adversely affects the real estate market.
    The fiscal year 2011 budget requests authorization of 
appropriations in the amount of $16.5 million. Total program estimate 
for fiscal year 2011 is $49.9 million and will be funded with requested 
budget authority, revenue from sales of acquired properties, and prior 
year unobligated balances.

                                SUMMARY

    Mr. Chairman, the fiscal year 2011 Military Construction and BRAC 
budget requests are balanced programs that support our soldiers and 
their families, overseas contingency operations, Army transformation, 
readiness, and DOD installation strategy goals. We are proud to present 
this budget for your consideration because of what this budget will 
provide for the Army.
Military Construction:
  --$7.9 billion invested in soldier/family readiness;
  --$930 million to support projects for overseas contingency 
        operations;
  --$4,079 million to Active Army;
  --$318 million to Army Reserve;
  --$874 million to Army National Guard;
  --$610 million to family housing;
  --39 new training ranges/facilities;
  --37 new Reserve and National Guard operations and readiness centers;
  --245 families get new or improved housing;
  --8,857 soldiers get new barracks.
Base Realignment and Closure:
  --$1,012 million to support BRAC 2005;
  --Statutory compliance by 2011 for BRAC 2005;
  --Continued environmental restoration and disposal of excess acres.
    Our long-term strategies for installations will be accomplished 
through sustained and balanced funding, and with your support, we will 
continue to improve soldier and family quality of life, while remaining 
focused on Army and Defense transformation goals.
    In closing, we would like to thank you again for the opportunity to 
appear before you today and for your continued support for America's 
Army.

                  HOMEOWNERS ASSISTANCE PROGRAM (HAP)

    Senator Johnson. Mr. Calcara, I will start with you. 
Department of Transportation has proposed legislative changes 
to the HAP language. Can you explain the reasons for the 
change?
    Mr. Calcara. Sir, are you referring to the start date for 
the program of July 2006? Is that the legislative change you 
are referring to? I am not aware of the exact DOT request.
    Senator Johnson. That is DOT and its short sales.
    Mr. Calcara. Short sales. Sir, I am unaware of the request. 
Could you provide me some clarity on the request, and I could 
perhaps----
    Senator Johnson. Yes, I can.
    Has the Secretary made a decision to terminate the 
temporary expansion of HAP on September 30, 2010, and if so, 
why?
    Mr. Calcara. Oh, okay. Yes. Sir, as you know, when we 
started the program, we had a specific amount of resources that 
we were given to work across three elements of the program, one 
being BRAC, one being Wounded Warriors, one being permanent 
change of station (PCS). Initially, to ensure that we had 
enough resources available for the BRAC migration which would 
occur down the line, we set aside some funding for that. The 
remaining dollars allowed us to implement the program for the 
PCS, for the permanent change of station, portion on a 1-year 
basis.
    As we have now got into the program and we are looking at 
affordability, it does appear that we will be able to extend 
it. So currently we have extended it through the calendar year, 
and depending on how much funding is available after we pay 
through those quarters, we would again continue it another 
year. That would be our approach.
    So I do not know as we would need legislation to do that. 
We have the flexibility in the program to do it without the 
legislation. We certainly would support it. It has always been 
our intent to cover as many PCS applications as we can. It is 
just we are trying to make sure we have enough money left for 
the BRAC portion which is coming down the line in the next 18 
months.

                            ENERGY SECURITY

    Senator Johnson. Secretary Hansen, energy security on bases 
is a major. What is the Army doing to protect critical mission 
assets from the threat of extended disruptions to the 
commercial power grid?
    Mr. Hansen. Thank you, Mr. Chairman. The Army has $98.7 
million programmed in fiscal year 2011 for installation, 
facility, energy security initiatives, for example, utilities 
modernization, advanced metering, renewable energy project 
development, comprehensive energy and water management, and 
energy security planning. That planning includes working very 
closely with the critical infrastructure protection people to 
ensure that we are putting a high priority on securing those 
facilities and those portions of the facilities.
    In the Milcon area for new construction, approximately 2 
percent of the cost is devoted to energy efficiency additions 
which address EPAct 2005 goals, plus the standard to design the 
Lead Silver. With restoration and modernization funding, we are 
incorporating metering for large projects and attempt, where 
impossible, to include other energy security initiatives, 
features such as motion sensor lights, solar street lights, LED 
lighting, and additional insulation. With future years defense 
program (FYDP) 2012 to 2017, this will be the first POM cycle 
in which we have been able to address comprehensively energy 
security initiatives identified in our newly approved Army 
energy security implementation strategies. We will have much 
more to come with fiscal year 2012, sir.
    Senator Johnson. Secretary Hansen, could you provide the 
subcommittee with a list of potential unfunded Energy 
Conservation Investment Program (ECIP) projects that could be 
executed in fiscal year 2011?
    Mr. Hansen. Yes, sir, we will.
    [The information follows:]

    The following is a list of unfunded ECIP project that could be 
executed in fiscal year 2011:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                  Region                                 Installation                 DD 1391                     Title                       Amount
--------------------------------------------------------------------------------------------------------------------------------------------------------
NERO.....................................  Letterkenny AD.........................        75934  Solar Walls............................      $1,100,000
PARO.....................................  Ft Wainwright..........................        76006  Improve Motors.........................       3,200,000
SERO.....................................  Ft Bragg...............................        78034  Retrocommissioning Barracks, HQs,             7,200,000
                                                                                                  others.
SERO.....................................  Redstone Arsenal.......................        76139  Solar Walls............................       1,582,000
ARNG.....................................  Sea Girt, NJ...........................        77795  PV Solar System........................       5,600,000
SERO.....................................  Ft Knox................................        67393  Photovoltaic, Phase 1..................       6,100,000
NERO.....................................  Ft Drum................................        75514  Retrocommissioning 27 buildings........       3,650,000
WEST.....................................  Ft Bliss...............................        77029  Install Microgrid......................       5,600,000
WEST.....................................  Ft Bliss...............................        76085  Solar Daylighting......................       2,250,000
WEST.....................................  Ft Bliss...............................        76083  Solar Power Facility...................       4,750,000
WEST.....................................  Ft Bliss...............................        76082  Solar Power Facility...................       2,450,000
WEST.....................................  Ft Bliss...............................        76048  Solar Facility.........................       1,200,000
WEST.....................................  Ft Bliss...............................        76034  Power Facility.........................       2,400,000
WEST.....................................  Ft Bliss...............................        76031  Solar Power Facility...................       4,050,000
                                                                                                                                         ---------------
      TOTAL..............................  .......................................  ...........  .......................................      51,132,000
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Senator Johnson. Secretary Hansen, the Army like all of the 
services, has experienced large bid savings over the past 2 
years due to a competitive bid climate. What is the average 
percent of bid savings on the fiscal year 2010 projects that 
have been awarded to date, and what has been the projected 
level of bid savings for the fiscal year 2011 program if the 
bidding climate continues to be favorable?
    Mr. Hansen. I know we have had significant savings in some 
areas, but it has been somewhat erratic, sir. If I may defer to 
Mr. Calcara, I believe he has more detailed information on 
that.
    Mr. Calcara. Sir, we have currently executed about 40 
percent of the program and we are averaging anywhere between 10 
and 25 percent depending on the location. Savings, of course, 
are very centric to the market and the type of construction and 
where we are doing the work.
    I would tell you this that I think if the current bid 
climate holds the way it has through the first 6 months of the 
year--we have two taxes that we are paying. One is a tax that 
came out of the fiscal year 2010 appropriation. It is about 
$230 million, I believe, for the Army that we have to source 
out of that savings. The other one was dollars that were 
assessed to us from a GAAP analysis process that was done from 
the fiscal year 2009 program. We owe about $160 million on 
that.
    So what we are trying to do is harvest the savings we have 
against the dollars we have captured so far to pay those two 
taxes, and then there would be some dollars left over. I know 
you are looking for a number from me. I think there will be 
some savings, but it will not be 10 or 15 percent of the total 
program amount because of those taxes.
    Senator Johnson. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                        BRAC PROPERTY CONVEYANCE

    Secretary Hansen, last year I was among those members who 
worked very hard to put new authority in the defense 
authorization bill for the military to look at no or low-cost 
conveyances for economic development purposes of BRAC-related 
property. Has the Army used that new authority yet?
    Mr. Hansen. Yes, ma'am. We began reviewing all of our 
conveyances immediately upon receipt of that new authority. I 
am happy to say that it has given us a lot of flexibility to 
move more quickly and to create more win-win situations. A case 
in point is the Kansas Army ammunition plant that we are trying 
to finalize this year, and we are doing a revenue sharing plan 
with them for fiscal years 2006 through 2010 with the potential 
of $3.5 million coming back to the Army if they are successful 
and achieve their desired outcomes. Everyone is very enthused 
about this additional flexibility now, and I think it will 
allows us to dispose of properties more quickly with much more 
favorable results.
    Thank you, ma'am.
    Senator Collins. Thank you. I am delighted to hear that.
    General Carpenter, let me start by thanking you for coming 
to Maine last week. I have heard from the employees at the 
Maine Military Authority, as well as the Maine troop greeters, 
how pleased they were that you came firsthand to thank the 
troop greeters who have welcomed back or sent off more than a 
million members of our Armed Forces over the past few years.
    Also, I was delighted that you came to see the capabilities 
of the Maine Military Authority in Limestone in northern Maine.
    Could you share with the subcommittee your professional 
opinion of the capabilities of the Maine Military Authority?
    General Carpenter. First of all, Senator, let me tell you 
what an honor and a privilege it was to accompany you up to 
Maine the other day. The pride that you have in the State of 
Maine and specifically the Maine Military Authority and the 
troop greeters for what they do up there was very obvious, and 
I appreciate your support for the National Guard across the 
board. So thank you very much, Senator.
    Senator Collins. Thank you.
    General Carpenter. We are looking at our visit the other 
day, and it was a great opportunity for me to see what the 
Maine Military Authority is all about because I had not visited 
that particular facility before. As they very eloquently 
outlined, they have more capability than what is being used up 
there, and we are really taking a long look at how we parcel 
out work to that particular effort up there, and I think there 
are some opportunities to expand what is going on up there in 
the Maine Military Authority.
    As I mentioned when I was up there, our effort here is to 
be a good steward of the taxpayers' dollar, and what we get 
from the Maine Military Authority is absolutely a top product 
for a very good price. So it only makes sense for us, to the 
extent that we can, to utilize that particular effort up there 
and to maximize the capacity.
    I would also like to say it was a very humbling experience 
to get a chance to see the troop greeters the other day. There 
were almost 75 people there and they ranged in age from high 
school kids to World War II veterans. It was very impressive. 
They have met every airplane since Desert Storm that has come 
back from theater, and you can also see how proud they are of 
that.
    So, again, I think we have got some opportunities in the 
Maine Military Authority, and again, it was a great privilege 
to accompany you the other day.
    Senator Collins. Thank you, General. We were very honored 
to have you in our State.
    General Boozer, I understand that you are also taking a 
look at the Maine Military Authority. Are you working to 
identify possible opportunities where the Maine Military 
Authority might be able to assist the Army in its needs?
    General Boozer. Yes, Senator Collins, thanks for the 
question.
    Based on some of the feedback that I have received, I think 
I need to make a trip up there to take a look at that facility 
that General Carpenter just described.
    Senator Collins. We would welcome you anytime.
    General Boozer. I believe you know that Army Materiel 
Command CCOM already has a recapitalization program for some of 
our HMMWV's, our shelter-carrying HMMWV's, and that is about a 
$7 million a year program. But Army Materiel Command is also in 
discussions with MMA about a potential for them to compete in 
their expanding wheel assembly program. So that has got great 
promise, and I know AMC has asked MMA for their capabilities 
and capacities in that regard, and those discussions are 
ongoing.
    There were some folks there too, Senator, from the 
installation management team, and it looks like there may be a 
possibility of funneling some of our nontactical fleet to the 
MMA, specifically our fire fighting equipment that is in dire 
need of refurbishment that we supply to our installations. So 
all of that is ongoing.
    Senator Collins. Great.
    Thank you, Mr. Chairman. And I thank the witnesses.

                           PINE BLUFF ARSENAL

    Senator Johnson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Thank you all for being here today. I would like to ask, if 
I can, maybe General Boozer and also Mr. Hansen a little bit 
about the Pine Bluff arsenal, which is a facility in my State 
that has a huge chemical stockpile that has been destroyed on 
schedule and I think even under budget or at least on schedule 
and ahead of budget. As that thing closes down and that goes 
away and we lose all of that, it is going to have about a $100 
million impact to the community annually.
    The Workforce Transition Office, I think, was established 
in 2009 between the Army and the Southeast Arkansas Economic 
Development Authority to address things like retirement 
counseling, outplacement assistance, training assistance, et 
cetera. And I will be meeting with them soon. I think it is 
next week or the week after. I am not sure.
    I guess the first question is for both of you all. Are you 
aware of the circumstances surrounding the Pine Bluff arsenal 
and the Pine Bluff community? Are you all aware of that?
    General Boozer. Senator Pryor, I am not simply aware of 
that issue.
    I know kind of where we are with the Pine Bluff disposal 
facility. They have started that campaign that started in about 
December of 2008, and they are doing great work out there 
destroying just tons of mustard gas and mustard stuff.
    We had not even as an Army begun the closure process 
because I think we have to go through and figure out what there 
really needs to be decontaminated and/or demolished and then 
what are some potential uses as well. So the closure process, 
at least to my knowledge, has not even begun at Pine Bluff.
    Mr. Hansen. I am somewhat familiar, although you have 
alluded to some things that I probably need to find out some 
more about. As you are aware, the chem demil program, 
established by Public Law 99-145, called for eliminating all 
chemical warfare-related materials, and a key feature of that 
program is the requirement for those chem demil facilities 
themselves to be destroyed upon completion of the mission. At 
that time, we are looking at each of the buildings and 
structures there right now to determine which ones might be 
retained and which ones would be contaminated and have to be 
destroyed or decontaminated.
    We do not know an exact closure date. We have not finished 
that process at this time, but we do expect to work very 
closely with your authority to make sure that people are taken 
care of to the extent possible.
    Senator Pryor. Great. I do not know if you all have plans 
for all the equipment and weapons that will be coming back from 
Afghanistan and Iraq in terms of reset and all that, but I 
would suggest the Pine Bluff arsenal may be a good place that a 
lot of that could be done. If you are familiar with the 
facility, you will know why I say that because they just have a 
great workforce, a lot of infrastructure there, and a lot of 
resources there that I think could really be helpful on that.
    Let me also ask about the Army National Guard itself. I 
know that if you look at the Army National Guard installations, 
I think the average age is maybe 41 years old. I think 24 
percent are over 70 years old, and I think we have 37 
facilities that are over 100 years old. I know that last year 
when we did the stimulus and the Recovery Act, we discussed the 
needs for the Guard Bureau to be able to have resources to 
upgrade or improve their situation. I think that they gave us a 
list of over 100 priorities that were shovel-ready projects. I 
think they totaled about $1.2 billion, if my memory is correct.
    But anyway, unfortunately I think that most of this--not 
all of it, but most of it--was just ignored by the Army. So I 
guess my first question is do we know why a lot of these 
shovel-ready projects were not funded. Let me just start with 
that question. Do we know why they were not funded, why the 
shovel-ready projects were not funded?

                          ARMY NATIONAL GUARD

    General Carpenter. Senator, as we worked through the 
process when the stimulus package was being formulated, a call 
went out to all components of the Army to provide potential 
projects that would be shovel-ready, and from the Army Guard's 
perspective, we had a number of those. You have identified the 
list that we submitted, sir. And we forwarded them to the Army 
for competition.
    Senator Pryor. Did they lose out on that competition, or 
are they still being considered?
    General Carpenter. Sir, we ended up having, I believe, $50 
million worth of projects funded through the construction piece 
of the stimulus package, and that amounted to, I believe, about 
8 or 10 projects. I would have to provide that information to 
you for the record.
    [The information follows:]

    Fiscal year 2009 MCNG Economic Stimulus Package Program (ARRA)--Six 
projects funded:
  --CA, Mather AFB, Airfield Resurface
  --NE, Camp Ashland, Dining Facility Add/Alt
  --NY, Fort Hamilton, Ready Building
  --NC, Raleigh, Armed Forces Reserve Center
  --OR, Camp Withycombe, Readiness Center
  --WV, Gassaway, Readiness Center
    Note: Due to bid savings in the fiscal year 2009 ARRA program, the 
ARNG is planning to fund four more projects:
  --CA, Camp Roberts, Dining Facility
  --GA, Marietta Dinning Facility Add/Alt
  --OR, Camp Rilea, Sanitary Sewer Rehab
  --RI, Camp Fogarty, Rigger Facility

    Senator Pryor. So are you saying the Guard Bureau got $50 
million out of that?
    General Carpenter. I believe that is the correct number.
    Senator Pryor. And do you remember what the total was that 
the military got for the shovel-ready projects?
    General Carpenter. Mr. Senator, I believe total Milcon from 
the stimulus bill was $230 million, of which $50 million went 
to the National Guard.
    Senator Pryor. I do not know about that ratio. That sounds 
like that may be close to 20 percent, if I am doing that math 
right, and that may be about the right ratio, but at the same 
time, the Guard and the reserve component is really the key to 
our readiness today. I mean, we are asking them to do more and 
more. A lot of them--not all, but a lot of them--are working in 
antiquated buildings and outdated infrastructure. So I guess I 
would encourage you all just to continue to try to find ways to 
get the Guard the resources they need so that you can fund some 
of these projects. Like I said, it sounds like you maybe funded 
8 and you have 100 on the list. Maybe you got eight done.
    Mr. Snyder. I would like to add also, Senator, that the 
Army Reserve received $98 million that funded 22 projects in 
the ARRA.
    Senator Pryor. The Reserve did.
    Mr. Snyder. Yes, sir.
    Mr. Calcara. Sir, if I could, it is important to note that 
the ARRA program was a DOD-wide look in how the projects 
competed. Other than a worst first or a fair share type look, 
there were other aspects that were brought to that: geographic 
balance, job creation. There were other aspects in the funding 
of ARRA that are not present in our normal discourse when we 
decide how to make investments. So I think we did fairly well. 
If you look across the Army as a portfolio, we got the lion's 
share of the funding in DOD. So there is some goodness in what 
happened there, albeit we could always use more.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Johnson. Senator Murkowski.

                             ALASKA MILCON

    Senator Murkowski. Thank you, Mr. Chairman.
    Gentlemen, good morning. Mr. Hansen, I will start with you. 
I think we recognize well the opportunities that Alaska 
presents with its joint training ranges. Some have described 
them as superlative, and if I could think of a better word, I 
would go higher than that. But I think we recognize that the 
opportunity for the Air Force, the Army, now the Navy to 
conduct synchronized training free from encroachments is a real 
asset.
    Can you comment on the Army's future plans for continued 
infrastructure development on these training grounds, and how 
do you plan to maximize utilization of this national asset?
    Mr. Hansen. We had a discussion on that just before the 
hearing this morning, ma'am. If it is okay with you, I would 
like to defer to Mr. Calcara on that. I think he has more 
detailed information.
    Mr. Calcara. I did not have the discussion this morning, 
Jerry.
    Senator Murkowski. They discussed that you were going to 
speak to it.
    Mr. Calcara. I am going to defer to General Boozer.
    Senator Murkowski. All right. Pass it on down.
    General Boozer. That is what I get, Senator, for sitting at 
the end of the table.
    Ma'am, I know in the 2011 request there is some substantial 
Milcon in Alaska which I think goes to show that we believe 
that when you just stated is that there are great training 
opportunities up there in Alaska. A little over $300 million in 
the 2011 request. A lot of that goes toward some multiple 
purpose machine gun range, a simulation center which gets right 
at the heart of training, and I think an urban assault course 
as well. And I believe the Army will continue to invest in both 
Forts Greeley and Wainwright or Fort Richardson as well in 
Alaska for a long time to come.
    Senator Murkowski. Well, we continue at the State level to 
try to do what we can to further open up training ranges. Our 
legislature just met and are working to provide for some 
transportation corridors that I think will be helpful to you.
    Let me ask a question, and again, I do not know whether 
this is to you, Mr. Hansen, or to others, but this is regarding 
improper classification of construction workers. The Department 
of Labor has initiated a pretty major effort to ensure that 
businesses do not improperly classify construction workers as 
independent contractors rather than employees. I was just 
visited yesterday in my office by some in the Alaska 
construction trades that are concerned that some of the 
contractors that utilize construction workers on Alaska Army 
bases may be engaging in this process of misclassification.
    Does the Army have a process for investigating these 
complaints and enforcing compliance with wage and hour laws, 
and if they do not, should they?
    Mr. Calcara. I guess I will take that one, ma'am. It is 
hard to make a general statement whether we are talking about 
military construction projects or repair projects done through 
an RCI. But the Department of Labor does routinely conduct wage 
rate interviews, and that is the process. Essentially when DOL 
comes in and does a wage rate labor classification interview 
and they have a finding, then the Army would address it. So I 
believe there is a process in place. I have not heard about the 
issue you just mentioned, but I will certainly take it back and 
follow up with your staff and see what I can do about it.
    Senator Murkowski. Well, I would appreciate that, and if we 
can give you more specifics to which to respond, we will do so.
    Mr. Calcara, we will just keep going with you here. You are 
certainly aware of the concerns that have been expressed 
previously by many in the Fairbanks community about the use of 
out-of-State contractors and construction workers by the Actus 
Lend Lease there at Wainwright. I had a chance to discuss this 
issue with Dorothy Rabin a few weeks ago and she suggested at 
that time that the issues that I raised were concerns that were 
uncommon in privatized housing projects, and she basically 
suggested that I ask the various services.
    I know that you do have small business utilization goals, 
but that does not necessarily ensure that the local workers get 
the construction jobs. So the question is, do you think it is 
good policy to encourage housing privatization partners to use 
the local contractors and local construction workers for the 
privatization work, or is the Department indifferent on this as 
an issue?
    Mr. Calcara. We absolutely think it is good policy. Just to 
follow up, as you know, I have been personally engaged in this.
    Senator Murkowski. Which we appreciate.
    Mr. Calcara. And I have done a deep dive on the metrics 
across the programs. So I want to throw a couple numbers out 
there for the record. Of the $5.7 billion in the portfolio in 
construction through December 31st of last year, $3.6 billion, 
or over 60 percent of it, has gone to small and local 
businesses. In Alaska, we are beating that by about 15 percent. 
We are in the 75 to 80 percent range.
    So where is the issue? Because you are obviously getting 
feedback. My understanding is that while we have State-licensed 
contractors, they may, in fact, have corporate headquarters in 
other parts of the country. They may, in fact, be augmenting 
staff with folks that are coming in from other areas of the 
country.
    I am not sure there is much that we could do through policy 
or incentivization to that. The developers and the service 
providers are incented to hit small business and local goals. 
They are also incented to be efficient and effective in the 
pricing and the delivery of the construction. And to the extent 
that someone who is locally licensed wants to hire someone from 
Washington State to work in Alaska on a project, there is 
really not much we can do about that. So that is kind of how I 
look at it, ma'am.

                     MILITARY HOUSING PRIVATIZATION

    Senator Murkowski. So you do not think it is necessary or 
perhaps appropriate to change the laws governing the military 
privatization to require that some level of local contracting 
be utilized.
    Mr. Calcara. Well, I guess if you define local as people 
who are born or living, I would say no. If you define local as 
someone who has a State license there, again, we are hitting 
two-thirds of the portfolio, three-quarters in Alaska local and 
small business. So it is how you define ``local'' I guess.
    Senator Murkowski. Well, as you know--and again, I 
appreciate your engagement in this--it has been an issue that 
has generated some controversy and a great deal of discussion. 
At least there has been more full-on debate and discussion 
about it of late, and I think that we are making some gains and 
that is good.
    Another issue that is in the same category--and Mr. 
Chairman, if I just can have another 30 seconds to finish up 
here, I will conclude with my questions.
    But I had a chance to bring this up again a couple weeks 
ago as it related to those who are not lawfully eligible to 
work here in the United States. We had a situation last year 
where on one of our Alaska bases there was an investigation of 
some of the individuals that were working on construction of 
building hangars, and it was determined that 4 out of the 30 
individuals were not lawfully eligible to work in the United 
States. One was determined to have a criminal history in the 
State of California, and of course, the big brouhaha was this 
is on a military base. It is supposed to have secure areas, and 
we had a situation, an example, where not only were the people 
not eligible to work here in the United States getting through 
the gate, but with criminal backgrounds.
    So the question that I had asked and I will ask of you is, 
is the Army doing anything to ensure that those working in its 
facilities are lawfully here working in the United States and 
whether or not, for security reasons, we need to be doing more 
to ensure a level of compliance?
    Mr. Calcara. Well, as you know, ma'am, all our bases are 
generally in controlled access areas. So all contractors have 
to have badges and, at some point, have to provide a copy of a 
contract that they have with the Federal Government, as well as 
the necessary identification to get a badge issued.
    Are there anecdotal instances where folks get through that 
net? It does not surprise me that you have uncovered some. I 
guess from here on out, we will reissue policy to ensure that 
we are diligent in checking those credentials. Obviously, 
contractors have to have an active contract to get on a post. 
Ultimately, that is the compliance measure that we use. We just 
have to get a little tighter, I guess, and catch those 4 out of 
30 that appeared to get through the net.
    Senator Murkowski. And I think part of this issue was, 
again, it was a contractor who brought up folks from outside. 
It goes back to the local hire issue, and that is why they come 
to my attention.
    Mr. Calcara. Yes, ma'am.
    Senator Murkowski. And I in turn bring them to yours. So I 
look forward to working with you on some of these details.
    With that, Mr. Chairman, I thank you for the time.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Johnson. To this panel, thanks for your service to 
our Nation. You may be excused.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted to Hon. Jerry Hansen
               Questions Submitted by Senator Tim Johnson

                     ENERGY EFFICIENCY IMPROVEMENT

    Question. What is the Army doing to improve energy efficiency on 
its bases and increase the use of green building practices, in 
particular green or cool roof projects?
    Answer. In order to provide energy efficient and sustainable new 
facilities, the Army continues to require all military construction 
(Milcon) achieve the SILVER criteria of the U.S. Green Building 
Council's Leadership in Energy and Environmental Design (LEED) rating 
tool. Projects are evaluated in 6 LEED major credit areas: Sustainable 
Sites, Water Efficiency, Energy & Atmosphere, Material & Resources, 
Indoor Environmental Quality, and Innovation & Design Process. Army 
also requires new facilities to be 30 percent more energy efficient 
than the industry standard defined by the American Society of Heating, 
Refrigerating and Air-Conditioning Engineers (ASHRAE) 90.1-2004. As 
such, new buildings will incorporate appropriate engineering solutions 
(insulation and windows), design features (cool roofs and daylighting), 
technologies (LED lights and ground source heat pumps), and energy 
efficient mechanical systems (Energy Star  rated motors) where life-
cycle cost effective.
    All Sustainment, Restoration and Modernization (SRM) funded 
projects for repair, maintenance, and new work are also required to 
comply with and, where applicable, contribute toward the goals 
specified in the Energy Policy Act of 2005 and incorporate sustainable 
design features where life-cycle cost effective. For instance, all new 
roofing or planned re-roofing SRM projects in climate zones 1 to 5 are 
required to install reflective ``cool'' roofs over air conditioned 
spaces in buildings.

                            ENERGY SECURITY

    Question. Energy security on bases is a major concern. What is the 
Army doing to protect critical mission assets from the threat of 
extended disruptions to the commercial power grid?
    Answer. The Army Energy Security Implementation Strategy 
communicates the Army's energy security vision, mission, goals, and 
sets forth the framework to address the five key components of 
security--surety, survivability, supply, sufficiency, and 
sustainability. The Army is developing a template to ensure 
installation energy security plans have a standard to identify critical 
loads, methods and plans to supply backup utilities in the event of an 
emergency, and identify actions needed to harden utility systems to 
improve their energy security posture. Using American Recovery and 
Reinvestment Act (ARRA) funding, the Army is developing an Energy 
Security Audit Model which will provide a consistent methodology to 
identify potential energy security vulnerabilities and prioritize 
energy security risks and mitigation projects. The Army is also 
expanding the use of renewable energy through the Energy Conservation 
and Investment Program and alternative financing programs to reduce our 
reliance on the grid. Alternative financing programs for partnering 
with the private sector include Enhanced Use Leases, Power Purchasing 
Agreements, Energy Savings Performance Contracts and Utility Energy 
Services Contracts.

                 ENERGY CONSERVATION INVESTMENT PROGRAM

    Question. The Army's share of the fiscal year 2011 Energy 
Conservation Investment Program (ECIP) is $43.4 million. Could you 
execute additional funding?
    Answer. Yes, the Army could execute as much as an additional 
$51,132,000 if received early in the fiscal year.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                         BARRACKS PRIVATIZATION

    Question. Will the current Army Milcon and SRM investment funding 
plans provide single enlisted soldiers the same quality of housing we 
provide married soldiers by a date certain?
    Answer. Yes, we are providing safe, convenient, high-quality 
housing for our single soldiers just as we are with the married 
soldiers. The Army is currently in year 17 of its 20-year Permanent 
Party Barracks Modernization Program. By fiscal year 2013, all funding 
will be in place for this barracks program with occupancy estimated for 
fiscal year 2015, every single soldier will be provided with a quality 
living space. The Permanent Party Barracks Modernization Program is the 
foundation for providing our warriors with the best facilities 
possible. Following the completion of the modernization program, the 
Army will program the replacement of older legacy facilities to ensure 
all soldiers remain adequately housed.
    Question. Does budgeting to attempt to maintain permanent party 
barracks as ``adequate'' under current Army standards meet the 
obligation to provide single soldiers the same quality of housing as 
their married counterparts?
    Answer. Yes, we are budgeting to maintain safe, convenient, high-
quality housing for our single soldiers just as we are with the married 
soldiers. The sustainment requirements for Permanent Party barracks are 
generated through the Department of Defense Facilities Sustainment 
Model (FSM). The FSM calculates the funding requirement in order to 
sustain facilities at an adequate level or condition. The Office of 
Secretary Defense mandates that all facilities are funded to at least 
90 percent of the Army requirement generated by the FSM. The buyout of 
inadequate barracks remains the top priority among facility programs in 
the Army.
                                 ______
                                 
                Questions Submitted to Joseph F. Calcara
               Questions Submitted by Senator Tim Johnson

                     HOMEOWNERS ASSISTANCE PROGRAM

    Question. This subcommittee has provided a total of $855 million in 
funding to expand the Homeowner's Assistance Program, or HAP, to help 
military families who face massive losses on the sale of their homes 
when they are required to relocate during the current mortgage crisis.
    Could you outline the status of the expanded HAP program and the 
expenditures to date?
    Answer. The U.S. Army Corps of Engineers began receiving 
applications in February 2009. Payments to beneficiaries began in 
October 2009. Eligible applications submitted to date total 5,918. 
Benefits totaling $183.2 million have been paid to 1,445 eligible 
applicants.
    Question. DOD has proposed legislative changes to the HAP language. 
Can you explain the reasons for these changes?
    Answer. Presently, the law requires the Government to purchase an 
applicant's home when the applicant's home value is less than their 
mortgage payoff. This proposal would allow the Government to pay only 
the difference between the price for which an applicant sells his/her 
home and the mortgage payoffs rather than purchasing the home and then 
immediately selling the home to the applicant's buyer. This legislation 
will simplify and speed claim payment and improve HAP fund management.
    Question. DOD claims this proposal will have no budgetary impact. 
Would you please provide the subcommittee the detailed budgetary 
analysis on which that conclusion is based?
    Answer. The proposal will substantially reduce claim processing 
time, slightly reduce transaction costs, and improve funds management 
by eliminating the current requirement for the Government to acquire 
the applicant's home and immediately re-sell the home to the 
applicant's buyer. Under the current law, this dual, sequential 
transaction forces the Government to fully fund the acquisition of the 
home and deposit the full Government ``re-sale'' proceeds in the HAP 
account, where they must be re-apportioned by OMB before they can be 
used by the program. That process of deposit and re-apportionment takes 
approximately 90 days and reduces available funds accordingly. The 
proposed legislation will have little budgetary impact, but will 
greatly simplify and improve the transaction by allowing the Government 
to merely pay the claim payment at the applicant's closing.
    Question. The expanded HAP authority gives the Secretary the 
discretion to compensate homeowners through September 30, 2012, with 
the discretion to terminate the program earlier. However, the HAP Web 
site has been updated to say that the permanent reassignment orders 
must be received by September 30, 2010, to be eligible for 
compensation.
    Given the continuing turmoil in the real estate market--especially 
in States like Florida, Arizona and Nevada which host large military 
installations--it seems very possible that military families will be 
struggling to sell their homes for some time to come.
    Has the Secretary made a decision to terminate the temporary 
expansion of HAP on September 30, 2010, and if so, why?
    Answer. DOD is currently assessing the availability of HAP funds to 
pay benefits for claims from members who move under Permanent Change of 
Station (PCS) orders. HAP claim payments for PCS applicants are 
averaging $126,000, which is 60 percent greater than $77,000 per claim 
cost originally forecast. However, DOD will assess what date PCS 
applications should be terminated after evaluating the number and rate 
of claim growth through the summer fiscal year 2010 PCS move cycle. 
Additionally, there is flexibility in the HAP budget plan that would 
allow payment of more PCS claims from HAP funds currently targeted for 
BRAC 2005 claim payments, if those BRAC claims lag forecasted volume.
    Question. Do you foresee a requirement for any additional funding 
to compensate military families under this program if the expanded 
benefits extend beyond 2010?
    Answer. The mortgage crisis has been extensive and costly. However, 
it is too early to accurately forecast whether current funding will be 
sufficient to fund the program as originally envisioned. While, claims 
are more expensive than forecast, it's not clear yet whether the volume 
of forecasted claims will vary substantially. DOD hopes to have a 
better analysis of the available funding at the conclusion of the 
fiscal year 2010 summer PCS cycle.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                         BARRACKS PRIVATIZATION

    Question. Will the current Army Milcon and SRM investment funding 
plans provide single enlisted soldiers the same quality of housing we 
provide married soldiers by a date certain?
    Answer. Yes, we are providing safe, convenient, high-quality 
housing for our single soldiers just as we are with the married 
soldiers. The Army is currently in year 17 of its 20-year Permanent 
Party Barracks Modernization Program. By fiscal year 2013, all funding 
will be in place for this barracks program with occupancy estimated for 
fiscal year 2015, every single soldier will be provided with a quality 
living space. The Permanent Party Barracks Modernization Program is the 
foundation for providing our warriors with the best facilities 
possible. Following the completion of the modernization program, the 
Army will program the replacement of older legacy facilities to ensure 
all soldiers remain adequately housed.
    Question. Does budgeting to attempt to maintain permanent party 
barracks as ``adequate'' under current Army standards meet the 
obligation to provide single soldiers the same quality of housing as 
their married counterparts?
    Answer. Yes, we are budgeting to maintain safe, convenient, high-
quality housing for our single soldiers just as we are with the married 
soldiers. The sustainment requirements for Permanent Party barracks are 
generated through the Department of Defense Facilities Sustainment 
Model (FSM). The FSM calculates the funding requirement in order to 
sustain facilities at an adequate level or condition. The Office of 
Secretary Defense mandates that all facilities are funded to at least 
90 percent of the Army requirement generated by the FSM. The buyout of 
inadequate barracks remains the top priority among facility programs in 
the Army.
    Question. What is the Army plan to move forward with pilot junior 
barracks privatization projects to resolve these remaining questions 
once and for all?
    Answer. The Army will continue to survey mission commanders and 
sergeants major regarding unit integrity and warrior ethos in an effort 
to identify locations where barracks privatization might be a viable 
option in the future.
                                 ______
                                 
               Questions Submitted to General Jim Boozer
            Questions Submitted by Senator Mary L. Landrieu

                         BARRACKS PRIVATIZATION

    Question. Will the current Army Milcon and SRM investment funding 
plans provide single enlisted soldiers the same quality of housing we 
provide married soldiers by a date certain?
    Answer. Yes, we are providing safe, convenient, high-quality 
housing for our single soldiers just as we are with the married 
soldiers. The Army is currently in year 17 of its 20-year Permanent 
Party Barracks Modernization Program. By fiscal year 2013, all funding 
will be in place for this barracks program with occupancy estimated for 
fiscal year 2015, every single soldier will be provided with a quality 
living space. The Permanent Party Barracks Modernization Program is the 
foundation for providing our warriors with the best facilities 
possible. Following the completion of the modernization program, the 
Army will program the replacement of older legacy facilities to ensure 
all soldiers remain adequately housed.
    Question. Does budgeting to attempt to maintain permanent party 
barracks as ``adequate'' under current Army standards meet the 
obligation to provide single soldiers the same quality of housing as 
their married counterparts?
    Answer. Yes, we are budgeting to maintain safe, convenient, high-
quality housing for our single soldiers just as we are with the married 
soldiers. The sustainment requirements for Permanent Party barracks are 
generated through the Department of Defense Facilities Sustainment 
Model (FSM). The FSM calculates the funding requirement in order to 
sustain facilities at an adequate level or condition. The Office of 
Secretary Defense mandates that all facilities are funded to at least 
90 percent of the Army requirement generated by the FSM. The buyout of 
inadequate barracks remains the top priority among facility programs in 
the Army.
    Question. What is the Army's plan to move forward with pilot junior 
barracks privatization projects to resolve these remaining questions 
once and for all?
    Answer. The Army continues to look at all of its options to 
supplement our barracks modernization program throughout the United 
States to fix and sustain quality housing for single soldiers over the 
long term. The Army's Unaccompanied Personnel Housing Privatization 
Study did show that barracks privatization projects can be financially 
feasible. But, the Army has concerns that discontinuing Army culture 
and practices due to introduction of a privatized barracks project 
would adversely affect soldier training and discipline that currently 
occurs in this living space. Additionally, there is a challenge of how 
to fund the Basic Allowance for Housing bill that will be generated by 
privatization over the next 50 years.
    Question. Assuming OMB full upfront scoring is avoided, is the cost 
of the three pilots in the study of $22 million in the first year that 
significant for the Army given the ability to sustain the housing for 
the long term?
    Answer. No. The first year cost of barracks privatization for the 
three pilots is not significant. However, the 50-year cost of barracks 
privatization for the three pilots (i.e., the difference between the 
Basic Allowance for Housing (BAH) and traditional funds available for 
barracks construction, renovation, sustainment, operations and 
management) is significant. In the study, we estimated the differential 
to be a total close to $1.7 billion more than traditional funds 
available for the three projects over 50 years.
    Question. Are there not additional offsets to those costs, such as 
the current BAH costs from issuances of certificates of non-
availability that are not reflected in the financial analysis in the 
Army study?
    Answer. Yes. There may be some additional, minor costs on ``both 
sides of the equation'' that were not considered in the study. However, 
we believe we have captured all of the major costs, and we are 
confident that the estimates in the study are reflective of the cost of 
barracks privatization.

                      Department of the Air Force

STATEMENT OF HON. TERRY A. YONKERS, ASSISTANT SECRETARY 
            OF THE AIR FORCE (INSTALLATIONS, 
            ENVIRONMENT AND LOGISTICS)
ACCOMPANIED BY:
        KATHLEEN I. FERGUSON, DEPUTY ASSISTANT SECRETARY OF THE AIR 
            FORCE (INSTALLATIONS)
        MAJOR GENERAL PATRICK J. MOISIO, DEPUTY DIRECTOR, AIR NATIONAL 
            GUARD
        MAJOR GENERAL DAVID L. COMMONS, MOBILIZATION ASSISTANT TO THE 
            CHIEF, AIR FORCE RESERVE
    Senator Johnson. I am pleased now to welcome our second 
panel of witnesses: the Hon. Terry A. Yonkers, Assistant 
Secretary of the Air Force for Installations, Environment and 
Logistics; Ms. Kathleen I. Ferguson, Deputy Assistant Secretary 
of the Air Force for Installations; Major General Patrick J. 
Moisio, Deputy Director, Air National Guard; and Major General 
David L. Commons, Mobilization Assistant to the Chief of the 
Air Force Reserve. Thank you all for coming. We look forward to 
your testimony, and again, your full statements will be entered 
into the record.
    Secretary Yonkers, please proceed.
    Mr. Yonkers. Good morning, Chairman Johnson and 
distinguished members of the subcommittee. And thank you for 
inviting me here today to address the Air Force's military 
construction, family housing, and BRAC implementation programs.
    I would like to begin by thanking the subcommittee for its 
continued support of the Air Force and the thousands of 
dedicated and brave airmen, their families serving this great 
Nation.
    Today is the 40th anniversary of Earth Day, and throughout 
our Nation, businesses, schools, and our military services are 
working to protect our planet; preserve our air, water, and 
land; and develop clean alternative sources of energy. And the 
Air Force is doing its part to realize a more secure and 
sustainable future.
    A clean and safe environment and secure sources of energy 
are essential for meeting our mission requirements and 
improving the quality of life for our airmen. The Air Force is 
proud to be a member of America's ongoing quest to restore and 
preserve our natural resources and use our energy more 
efficiently and effectively.
    I will now briefly talk a little bit about the Air Force's 
military construction, family housing, and base realignment and 
closure programs which form the foundation of our installation 
structure and provide the direct support responsible for 
meeting the needs of our airmen and their families.
    Our fiscal year 2011 President's budget request contains 
$5.5 billion for facility maintenance, military construction, 
military family housing, and base realignment and closure, 
which is a 3.8 percent increase above our fiscal year 2010 
request. Our facility sustainment and recapitalization programs 
represent the largest portion of that request with $3.1 billion 
to maintain and modernize our Air Force installations. The $1.5 
billion military construction request prioritizes our 
requirements and ensures new construction is aligned with 
weapon system deliveries and strategic basing initiatives, 
while we continue to accept some risk in our aging 
infrastructure recapitalization.
    Additionally, we continue our efforts to provide quality 
housing for airmen and their families by dedicating $600 
million to sustain and modernize overseas housing and support 
housing privatization in the continental United States.
    We also request a total of $252 million to continue 
completing our BRAC 2005 program requirements, as well as our 
legacy BRAC programs and especially environmental cleanup.
    In regards to our total force military construction 
program, I do want to mention the difficult decisions we made 
last year or made this year with regard to the funding of the 
component and major command priorities. Each component and each 
Active Duty major command received their top priority project. 
The apparent disparity among the Active Duty, the Guard, and 
the Reserve military construction reflects funding in the 
component's number one project and not the dollar value of 
these projects.
    This year the Active Duty, which is about 87 percent of 
plant replacement value, received 80 percent of the investment 
stream. The Air National Guard is about 9 percent of plant-to-
replacement value and received 17 percent of the investment 
stream. The Air Force Reserve is about 4 percent of plant 
replacement value. This year the Air Force Reserve received 
their top priority project, a maintenance facility at Patrick 
Air Force Base, but that only equated to about 2 percent of 
plant replacement value.
    The funding to components and the major commands shifts 
from year to year and it is important that we take care of the 
entire total Air Force. We greatly appreciate Congress' 
continued support of all the Air Force components, particularly 
in fiscal year 2010 in which the Congress provided a 
substantial amount of additional funding for the Air Force 
Reserve.
    I would like to close by briefly mentioning the Air Force's 
efforts in executing the base realignment and closure 
recommendations. To implement assigned recommendations, the Air 
Force's plan calls for the execution of nearly 400 separate 
actions, utilizing a budget that has been and remains fully 
funded at $3.8 billion. Two-thirds of this budget is military 
construction. Our BRAC military construction program will make 
its last contract award before the close of this fiscal year. 
In total, we will execute 231 BRAC military construction 
projects at 56 installations in 36 States. I am confident in 
telling you that the Air Force will complete that 
implementation of BRAC 2005 on time and within the budget.
    Today I am really pleased to have accompanying me Deputy 
Assistant Secretary for Installations, Ms. Kathleen Ferguson; 
Major General Commons, who is the Mobilization Assistant to the 
Chief of the Air Force Reserve; and also Major General Moisio, 
who is the Deputy Director of the Air National Guard.

                           PREPARED STATEMENT

    Sir, that concludes my remarks. I thank the subcommittee 
again for all that you have done for us and your continued 
support of our airmen and their families, and I look forward to 
any questions that you may have.
    [The statement follows:]

              Prepared Statement of Hon. Terry A. Yonkers

                              INTRODUCTION

    The ability of our Airmen to perform their missions world-wide is 
directly affected by the quality of resources, access to facilities, a 
robust logistics infrastructure for sustainment, and a confidence that 
while they are deployed their families are well taken care of and their 
needs are being met.
    Air Force Military Construction (Milcon), Military Family Housing 
(MFH), and Base Realignment and Closure (BRAC) programs form the 
foundation of our installation structure and provide the direct support 
responsible for meeting the needs of our Airmen and their families.
    We recognize we cannot lose focus on critical Air Force 
infrastructure programs, and we are working hard to ensure we have the 
proper infrastructure to enable our Airmen to perform their duties 
while ensuring responsible stewardship of fiscal resources.
    Our efforts are in direct support of the Air Forces' five 
priorities, which serve as a framework for this statement: (1) continue 
to strengthen the nuclear enterprise; (2) partner with the Joint and 
Coalition team to win today's fight; (3) develop and care for our 
Airmen and their families; (4) modernize our air and space inventories, 
organizations, and training; and (5) recapture acquisition excellence.

                                OVERVIEW

    Our fiscal year 2011 President's Budget Request contains $5.5 
billion for facility maintenance, military construction, military 
family housing, and Base Realignment and Closure, which is a 3.8 
percent increase above our fiscal year 2010 request. Our facility 
maintenance and repair account represents the largest portion of the 
request, with $3.1 billion to maintain Air Force installations. The 
$1.5 billion military construction request prioritizes our requirements 
and ensures new construction is aligned with weapon system deliveries 
and strategic basing initiatives, while we continue to accept some risk 
in aging infrastructure recapitalization. Approximately one-third of 
the military construction request is dedicated to new mission 
requirements, and in this year's budget all new mission projects are 
programmed in the Air National Guard and Active Duty components. 
Additionally, we continue our efforts to provide quality housing for 
Airmen and their families by dedicating nearly $600 million to 
sustaining and modernizing overseas housing, and supporting housing 
privatization in the Continental United States. We also request a total 
of $252 million to continue completing our BRAC 2005 program 
requirements as well as our legacy BRAC programs and environmental 
clean-up.
    In the course of building the fiscal year 2011 budget request, we 
made a number of difficult choices among competing priorities. One of 
these was a necessary but difficult decision to continue taking risk in 
our military construction as well as our restoration and modernization 
accounts. We continue to mitigate risk by funding facility sustainment 
to the 90 percent level in order to ensure that we keep our good 
facilities good.
    We also made difficult decisions regarding the funding of component 
and major command priorities. Each component and major command received 
their top priority project. The apparent disparity among the Active 
Duty and Guard and Reserve MILCON reflects funding of the component's 
No. 1 project and not the dollar value of those projects. This year, 
the Active Duty, which is about 87 percent of Plant Replacement Value 
(PRV), received 80 percent of the investment stream. The Air National 
Guard is about 9 percent of PRV and received 17 percent of the 
investment stream. The Air Force Reserve is about 4 percent of PRV. 
This year the Air Force Reserve received their top priority project, a 
maintenance facility at Patrick Air Force Base, but that only equated 
to about 2 percent of PRV. The funding to components and MAJCOMs shifts 
from year to year and it is important that we take care of the entire 
Air Force family. We greatly appreciate Congress' continued strong 
support of all of the Air Force components, particularly in fiscal year 
2010, in which the Congress provided a substantial amount of additional 
funding for the Air Force Reserve.
    The Air Force is also very appreciative of the support provided 
through the American Recovery and Reinvestment Act of 2009. The 
Recovery Act contributed significantly to our infrastructure. From this 
legislation, we received a total of $1.7 billion to support Air Force 
projects, including $1.3 billion for operations and maintenance for 
facilities sustainment, restoration, and modernization (FSRM); $327 
million in military construction and military family housing for 
dormitories and child development centers; and $75 million in research, 
development, testing and evaluation for projects to improve energy 
efficiency. In accordance with Congressional intent to allocate the 
funds quickly, we moved expeditiously to award contracts. By the end of 
calendar year 2009, we awarded nearly 90 percent of the funding 
allocated for our FSRM and military construction projects. 
Additionally, with the funding we saved from competitively bid 
projects, we funded two additional military construction requirements--
a dormitory and a child development center collectively valued at $33.2 
million.

             CONTINUE TO STRENGTHEN THE NUCLEAR ENTERPRISE

    Since its inception, the Air Force has served as a proud and 
disciplined steward of a large portion of the Nation's nuclear arsenal. 
We steadfastly operate, maintain, and secure nuclear weapons to deter 
potential adversaries, and to assure our partners we are a reliable 
force providing global stability. The first Air Force priority during 
the last 2 years has been to reinvigorate the stewardship, 
accountability, compliance, and precision within the nuclear 
enterprise. We have made progress in this area and will continue our 
pursuit of the highest standards of performance.
    In addition to ensuring our organizations and human resource plans 
support this mission, we are also concentrating on the infrastructure 
and facilities crucial to our success. To support this work, during the 
past 18 months, Air Force civil engineers have conducted enterprise-
wide facility assessments to refine our investment plans, and we are 
now beginning to execute our long-term investment strategy. Our fiscal 
year 2011 budget request includes $22.8 million in military 
construction for the nuclear enterprise, including a weapons load crew 
training facility at Barksdale Air Force Base (AFB), Louisiana, and a 
nuclear security tactics training center at Camp Guernsey, Wyoming. 
These and similar projects in the years to come will further our goal 
of a self-sustaining culture of critical self-assessment, continuous 
improvement, and unwavering excellence.

     PARTNER WITH THE JOINT AND COALITION TEAM TO WIN TODAY'S FIGHT

    Our Air Force continues to bring air, space, and cyber power to 
great effect in our conflicts in Afghanistan and Iraq, and our men and 
women make incredible contributions daily. We currently have almost 
40,000 Airmen deployed, including nearly 3,500 Air Force civil 
engineers. Approximately 20 percent of these Air Force civil engineers 
are filling Joint Expeditionary Taskings, serving shoulder-to-shoulder 
with our Joint teammates. Due to their wide array of skills, our Air 
Force Rapid Engineer Deployable Heavy Operational and Repair Squadron 
Engineers (RED HORSE) and our Prime Base Engineer Emergency Force 
(Prime BEEF) personnel are in high demand in several theaters of 
operation. Additionally, we have more than 150 civil engineers who are 
supporting relief and recovery operations in Haiti.
    In addition to our Airmen's contributions, our fiscal year 2011 
budget request invests $449 million in 40 projects that directly 
contribute to today's fight. Examples include the following:
  --Projects supporting our combatant commanders, particularly in the 
        U.S. Central Command area of operations, that will greatly 
        enhance ongoing operations. These include a medical evacuation 
        ramp expansion, fire station, fighter hangar, and consolidated 
        rigging facility in support of enduring airdrop operations at 
        Bagram Air Base (AB), Afghanistan; and an apron expansion, 
        providing vital Afghan theater of operations with refueling 
        capability out of Isa AB, Bahrain. The Air Force goes through a 
        structured process to ensure that funds are not expended on 
        enduring construction when expeditionary or temporary 
        construction will suffice.
  --New operations, maintenance, and training facilities for our Air 
        Support Operations squadrons. Airmen from these units, 
        including Joint Terminal Attack Control specialists, partner 
        with ground forces to integrate airpower in Iraq and 
        Afghanistan. These Active and Air National Guard facilities, 
        located in close proximity to the Army units that they support 
        in both Continental United States and overseas, will further 
        increase our capacity to operate and integrate closely with our 
        Joint partners.
  --Improvements at Andersen AFB, Guam. Five projects continue to build 
        our Pacific Air Force Regional Training Center and support the 
        Air Force's ``Guam Strike'' initiative, consolidating 
        operational capability for fighter and bomber operations at the 
        base.
  --Remotely piloted aircraft beddown, operations, and maintenance 
        support infrastructure. Nine projects at various Active Duty 
        and Air National Guard locations that support this rapidly 
        growing field include an operations facility at Cannon AFB, New 
        Mexico; a fire/crash/rescue squadron at Creech AFB, Nevada; a 
        new launch and recovery element facility at Fort Huachuca, 
        Arizona; and MQ-9 infrastructure support at Fort Drum, New 
        York; and others.
  --Facility recapitalization efforts. These--our component and major 
        command commanders' ``current mission'' priorities--will, among 
        other things, provide a modern operations facility for the 
        National Capital Region's Joint Air Defense mission; give our 
        special operations Airmen at Hurlburt Field, Florida, a new 
        logistics facility and school; and provide Kunsan AB, Korea, 
        with a facility to house their new F-16 simulator, due to 
        arrive in 2012.

             DEVELOP AND CARE FOR AIRMEN AND THEIR FAMILIES

    The All-Volunteer Force provides the required foundation for our 
flexible and agile force. Our fiscal year 2011 budget request reflects 
a commitment to preserving and enhancing our force through education 
and training, while also improving the overall quality of life of 
Airmen and their families where they work, live, and play.
Developing our Airmen
    Our Airmen are the best in the world, and as such they deserve 
first-class facilities in which they can train and advance their 
personal and professional development. Our fiscal year 2011 budget 
request contains five projects totaling $163 million for this effort. 
These projects include a flagship Center for Character and Leadership 
Development at the Air Force Academy, which will provide our future 
officers with a facility invested with the stature that our Service 
Core Values demand. Also, renovation and expansion of Air University's 
Fairchild Research Information Center--the largest military library in 
the world--will preserve the historical perspective and current 
research that form the basis for future airpower and Air Force theory, 
doctrine, and strategy. Additionally, we are continuing to improve 
facilities that support our newest Airmen at Lackland AFB, Texas, by 
building a new recruit dormitory, classroom, and in-processing center. 
These projects continue to improve our Air Force basic military 
training and provide incoming Airmen with facilities that are 
commensurate with the commitment that they make to our Nation.
Caring for Our Airmen and Their Families
    Because our families are crucial to the success of our Air Force, 
the Secretary of the Air Force designated July 2009-July 2010 as the 
``Year of the Air Force Family,'' to focus on the contributions of the 
entire Air Force family--military, civilian, spouses, children, 
extended family, and retirees--and investigate ways to make their lives 
better. A large part of this is ensuring that our military have first-
class homes and dormitories. We also must make certain our base and 
community environments are safe and secure, and they foster a sense of 
community. Simply put, our goal is to provide an even safer and more 
supportive environment for our men and women and their families, 
especially during deployments and other extended absences.
            Billeting
    This project, totaling $62 million, will provide billeting for 
Airmen in our fiscal year 2011 military construction program. Of 
particular note is a third phase of billeting construction at Al Udeid 
AB, Qatar, which will continue our effort to provide Airmen supporting 
operations in the U.S. Central Command theater with a quality place to 
live while deployed far from their families. This project will build 
two billeting facilities.
            Dormitories
    We remain committed to providing excellent housing for our 
unaccompanied Airmen, and we continue to reference our 2008 Dormitory 
Master Plan to make this vision a reality. Our fiscal year 2011 budget 
request includes four dormitory projects totaling $71 million. These 
include dorms at Cannon AFB, New Mexico; Joint Base McGuire-Dix-
Lakehurst, New Jersey; Kapaun Annex, Germany; and Aviano AB, Italy. At 
Aviano, this single new dormitory will not only provide improved 
quality of life for Airmen, but also enable the Air Force to close an 
entire community support annex, which will yield savings in facility 
maintenance, energy, services, and security costs. Our 2010 Dormitory 
Master Plan, to be released later this year, will also address 
dormitories that we gain from Joint Basing.
            Military Family Housing
    Our fiscal year 2011 budget for military family housing is nearly 
$600 million. The Air Force request for housing construction investment 
is $78 million to ensure the continuous improvement of over 400 of our 
more than 16,100 overseas homes. Our request also includes an 
additional $514 million to fund operations, maintenance, utilities, and 
leases, and to manage privatized units for the family housing program.
    Housing privatization is central to the success of our stateside--
including Alaska and Hawaii--military family housing initiatives. At 
the start of fiscal year 2011, we will have 38,800 privatized units, to 
be increased to 52,900 by the end of fiscal year 2011. As of the end of 
fiscal year 2009, privatization has leveraged a $423 million investment 
to $6.54 billion in development. We plan to privatize 100 percent of 
our family housing, in the Continental United States, by fiscal year 
2011.
            Child Development Centers
    Due to the elevated operations tempo in the past 8 years of 
conflict, child care for our families that remain stateside has become 
an increasingly significant focus area. As part of the American 
Recovery and Restoration Act, we have been able to allocate $80 million 
for eight new child development centers, to help ensure that our force 
has adequate child care capacity. We have aggressively pursued 
solutions to eliminate an earlier capacity issue, and we are on course 
to reduce our child care deficit to zero by 2012.
  modernize our air and space inventories, organizations, and training
    Modernizing our force to prepare for a wide range of future 
contingencies requires a significant investment. For fiscal year 2011, 
we are requesting $460 million for a variety of military construction 
projects, including:
  --Eight projects to prepare to beddown our newest fighter, the F-35. 
        This includes four projects at Nellis AFB, Nevada, where we 
        will accomplish a large part of the operational test and 
        evaluation for this aircraft. As we continue to assess F-35 
        program restructuring, we are closely analyzing the impacts 
        that any delivery delays will have on associated military 
        construction requirements.
  --Seven projects supporting our H/MC-130 fleet. These projects will 
        emphasize the newer ``J'' models.
  --Six projects supporting F-22 operations. This effort will continue 
        to modernize our air superiority fleet, including three 
        projects at Hickam AFB, Hawaii, for the beddown of the Air 
        National Guard squadron there.
  --Other projects. These will support diverse mission areas, including 
        space control, C-5/C-17 maintenance, and base and airfield 
        operations.

                         OTHER PROGRAMS OF NOTE

Overseas Contingency Operations
    Our fiscal year 2011 Overseas Contingency Operations (OCO) request 
for military construction supports $280 million in projects for 
Afghanistan. This complements our fiscal year 2010 OCO request of $474 
million and our fiscal year 2010 OCO supplemental request of $279 
million to support the recently announced troop strength increase. The 
fiscal year 2011 OCO projects build upon and expand the operational 
capacity that was initially provided by the fiscal years 2009/2010 
requests. These first military construction requirements provided 
access to operational areas in the rugged, undeveloped regions of 
Afghanistan. Our subsequent requests will expand that initial 
capability by providing primary theater hubs in Afghanistan. As such, 
they will reduce safety risks, increase throughput capacity of cargo 
and personnel, and increase the effectiveness and efficiency of air 
operations. In addition to supporting current operations, logistical 
facilities are required to sustain operations through the transition to 
Afghan control and will facilitate the eventual redeployment of our 
forces. Each project will be of great value to the Joint team, and we 
are committed to executing them as effectively and efficiently as 
possible.

BRAC 2005 Implementation
    The Office of the Secretary of Defense codified BRAC 2005 
implementation requirements and responsibilities through the use of 
business plans, a process that allows synchronization across the entire 
Department of Defense. The Air Force leads 64 business plans and is an 
equity partner in an additional 16.
    To implement the assigned recommendations, the Air Force's plan 
calls for the execution of nearly 400 separate actions utilizing a 
total budget that has been, and remains, fully funded at approximately 
$3.8 billion; two-thirds of this budget is military construction. Our 
BRAC military construction program will make its last contract award 
before the close of this fiscal year. In total, we will execute 231 
BRAC military construction (BRAC MILCON) projects, on 54 installations, 
in 36 States. The remaining segment of the BRAC budget funds 
environmental efforts, military personnel costs, training, and 
operations and maintenance-funded elements.

BRAC 2005: The Air National Guard and Air Force Reserve
    Seventy-eight percent of BRAC 2005 implementation actions affect 
the Air Reserve components. This stands in contrast to BRAC 1995 where 
just eighteen percent of actions affected either the Air National Guard 
(ANG) or Air Force Reserve (AFR). Many of the BRAC 2005 actions 
realigned similar missions or aircraft models to increase the efficient 
use of manpower, resources, and maintenance budgets. Single mission 
tasks were combined into Centralized Intermediate Repair Facilities 
where ANG, AFR, and Active Duty personnel work side-by-side. The Air 
Force Reserve has effectively managed manpower resources and minimized 
adverse impacts on personnel at locations such as General Mitchell Air 
Reserve Station, Wisconsin. The relocated reserve unit from General 
Mitchell is now fully operational at Pope AFB, North Carolina. The Air 
National Guard has better positioned units to accept future missions in 
such vital tasks as Homeland Defense, is more effectively integrated 
with the Active Force in current front-line fighters, and will share 
opportunities to accept new weapons platforms.

BRAC 2005: Execution Report Card
    BRAC 2005 impacts more than 120 Air Force installations. Whether 
establishing the F-35 Joint Strike Fighter Initial Training Site at 
Eglin AFB, Florida, closing Kulis Air Guard Station in Alaska, or 
transferring Pope AFB, North Carolina, to the Army, the Air Force 
community as a whole--Active, Guard, and Reserve--benefits from changes 
BRAC achieves. Among the seven closure installations, two are already 
considered closed while the others are proceeding according to plan. 
The Air Force is fully engaged in executing our requirements, nearly a 
third of assigned business plans are now considered complete and the 
rest are on schedule to complete by September 2011, completing 
implementation of BRAC 2005 on time and within budget.

Legacy BRAC: Real Property Transformation
    The Air Force remains a Federal leader in the implementation of the 
management principles outlined in Presidential Executive Order 13327, 
Federal Real Property Asset Management. We continue to aggressively 
manage our real property assets to deliver maximum value for the 
taxpayer, improve the quality of life for our Airmen and their 
families, and ensure the protection and sustainment of the environment 
to provide the highest level of support to Air Force missions. The Air 
Force is achieving these goals through an enterprise-wide Asset 
Management transformation that seeks to optimize asset value and to 
balance performance, risk, and cost over the full asset life cycle. Our 
approach is fundamentally about enhancing our built and natural asset 
inventories and linking these inventories to our decision-making 
processes and the appropriate property acquisition, management and 
disposal tools.
    Even though the BRAC 2005 round did not substantially reduce the 
Air Force's real property footprint, our current transformation efforts 
seek to ``shrink from within'' and to leverage the value of real 
property assets in order to meet our ``20/20 by 2020'' goal of 
offsetting a 20 percent reduction in funds available for installation 
support activities by achieving efficiencies and reducing by 20 percent 
the Air Force physical plant that requires funds by the year 2020.

Base Realignment and Closure Property Management
    To date, the Air Force has successfully conveyed by deed nearly 90 
percent of the 87,000 acres of Air Force land directed by BRAC 88, 91, 
93, and 95 with the remainder under lease for redevelopment and reuse. 
With the successful redevelopment of Air Force BRAC property, local 
communities have been able to increase the number of area jobs by over 
31,000.
    To complete the clean up and transfer by deed of remaining 
property, the Air Force is partnering with industry leaders on 
innovative business practices for its ``way ahead'' strategy. Of the 32 
legacy BRAC bases slated for closure, the Air Force completed 20 whole-
base transfers. Eight of the remaining 12 bases are targeted for 
transfer by the end of fiscal year 2010, while the last 4 (Chanute, 
George, McClellan, Griffiss) will transfer no later than the end of 
fiscal year 2013.
    As the Air Force transfers BRAC property for civic and private 
reuse, it is paramount we ensure any past environmental contamination 
on the property does not endanger public health or the environment. The 
Air Force will continue to fulfill this most solemn responsibility, as 
reflected in our fiscal year 2010 request of $116 million for Legacy 
BRAC cleanup activities, and another $13 million for BRAC 2005 cleanup 
activities.

Joint Basing
    The Air Force remains committed to joint basing initiatives to 
maximize installation efficiency, warfighting capability, and 
jointness, all the while saving taxpayer resources. Of the 12 joint 
bases mandated by BRAC 2005, 10 have Air Force equity, and we are the 
lead Service on six. All told, our current efforts with joint basing 
are proceeding smoothly, with no major issues. Three of the phase I 
joint bases with Air Force equity have already reached full operating 
capability status, and seven more phase II bases with Air Force equity 
have reached initial operating capability status, with full operating 
capability expected by October 1, 2010.

Energy
    The Air Force understands the criticality of furthering energy 
security for the Nation, and we remain committed to realizing our 
energy goals of reducing demand, increasing supply, and changing our 
culture to make energy a consideration in everything we do. Energy 
conservation investment is a significant component of our newly 
released 2010 Air Force Infrastructure Energy Plan. In fiscal year 
2011, we will continue our energy conservation efforts, which have 
already reduced facility energy use 14.6 percent from our 2003 
baseline. The Defense military construction budget request of $120 
million contains $35 million for our Energy Conservation Investment 
Program, which will save--$124 million. In fiscal year 2009, we 
exceeded our goals and produced or procured 5.4 percent of our total 
facility energy through renewable sources, and we have led the Federal 
Government as the number one purchaser of renewable energy for the 
fifth year in a row. The 19 projects in the fiscal year 2011 Defense-
wide military construction budget, including six solar projects, will 
continue this trend.

                               CONCLUSION

    The Air Force is committed to the infrastructure projects that 
support our missions; we are also committed to ensuring we continue to 
care for our Airmen and their families, to include first-class 
dormitories and housing, and Airman and family support.
    We also remain committed to optimizing the utility of our resources 
through effective joint basing, completing BRAC actions, and continuing 
energy conservation efforts.
    Finally, the Air Force is committed to being good stewards of 
funding intended to ensure Air Force mission success.

    Senator Johnson. Thank you.
    Ms. Ferguson, what is the status of the Northern Group 
Housing Privatization Project especially with reference to 
Ellsworth Air Force Base?

                         NORTHERN GROUP HOUSING

    Ms. Ferguson. Senator Johnson, we are very close to being 
able to begin the process to put this on the street. We have 
one more meeting that has to occur. Once that occurs, our 
intent is to issue the required notice of intent for 
solicitation to the Hill. That needs to be over here for 30 
days, and then after that, we would anticipate issuing the 
request for qualifications. We are hopeful that we clear this 
last hurdle and be able to begin that within the next few 
weeks, and that will allow us to select an offeror as early as 
September, with a closure in June of next year.
    Senator Johnson. What are the options and what is the 
timeline if the Northern Group Privatization Project does not 
go forward?
    Ms. Ferguson. Sir, we would have to step back and look to 
see what other options were available. We have worked with your 
staff. We have six bases linked in the Northern Group, and what 
we have done is we have blended a mixture of healthy bases that 
have a significant investment in military construction, as well 
as other bases that still require investment. Overall, the Air 
Force invested about $600 million in those bases so far, but 
there is another $400 million that needs to be invested and we 
are hoping to leverage the private sector to do that. With an 
additional $5 million of investment from the Department of the 
Air Force, we are able to leverage $400 million from the 
private sector to get that work done. So we are very hopeful we 
will be able to move this project forward soon.

                        AIR FORCE RESERVE MILCON

    Senator Johnson. To Secretary Yonkers and General Commons: 
This year's budget request includes only one military 
construction project for the Air Force Reserve and the future 
years defense program does not look much better. This should be 
an embarrassment to the Air Force. While I acknowledge that 
there continue to be many demands and tight budgets, it would 
seem to me that this does not support the Air Force's 
commitment to the total Force.
    Secretary Yonkers, are you comfortable that this level of 
funding, $3.8 million for one project, is adequate for the Air 
Force Reserve?
    Mr. Yonkers. Thanks for your comments, Senator.
    I think the short answer is we are not comfortable, but we 
had to make some really difficult decisions in fiscal year 2011 
to try to balance amongst all the competing interests and 
programs in the Air Force.
    As I mentioned in my opening remarks, each one of the major 
commands, the Air Guard and the Air Force Reserve, got their 
number one priority project this year. Had we looked back and 
circled back in the deliberations this last year, we would have 
found, I think, a more equitable distribution of our military 
construction dollars to particularly the Air Force Reserve. We 
will look at that much more closely in this upcoming budget 
review to make sure that occurs and they get a more equitable 
distribution of those dollars.
    I would also say that even though the military construction 
program is small and it is not as robust as we would like to 
see it, we are augmenting it through the facilities sustainment 
modernization program. Those dollars are fairly hefty, and so 
our idea here as we go forward is to utilize those dollars to 
sustain those particularly aging infrastructure until such time 
as we can get robust in our military construction program.
    Senator Johnson. General Commons, would you like to comment 
on the Air Force Reserve request?
    General Commons. Thank you, Mr. Chairman.
    In the budget formulation for fiscal year 2011, as 
Secretary Yonkers mentioned, the Air Force decided to take 
increased risk in current mission, and as a result of that, 
they made a determination that every major command would be 
awarded their top priority in current mission, which for the 
Air Force Reserve was the Patrick Air Force Base project.
    Also, we had no new mission requirements, which was funded. 
They did not take as much risk in new mission. I think that led 
to some of the disparity, but funding just one of our projects 
per year will not address the $1.2 billion backlog we now have 
in the Air Force Reserve on current mission requirements, which 
directly impacts our readiness and our quality of life in the 
Reserve Command.
    I would also like to add, though, and thank this 
subcommittee from last year for the plus-up in the $120 million 
that was given to the Air Force Reserve in military 
construction which made fiscal year 2010 one of our most 
successful years in military construction. And I would like to 
thank the subcommittee for that.

                  ENERGY EFFICIENCIES WITHIN AIR FORCE

    Senator Johnson. Secretary Yonkers, I understand that the 
Air Force has a net zero energy effort underway at the Air 
Force Academy. Could you explain that effort and whether the 
Air Force has any plans to employ that model at other bases?
    Mr. Yonkers. I will try to answer that question, sir. I was 
not really prepared to.
    Across the Air Force, Net Zero is one of the objectives 
that we have with regard to achieving these kinds of energy-
related, as well as greenhouse gas-related, potential impacts, 
depending upon what energy source you use. So the Air Force 
Academy is out in front with regard to that effort, and 
certainly those lessons learned will be applied to other air 
bases in the future. My intent is to meet exactly what the 
President has asked us to meet, both President Bush, during his 
administration, and President Obama during this administration, 
with regard to hitting those kinds of carbon sequestration and 
carbon balance topics or objectives, while at the same time, 
aggressively pursue renewable energy at our installations.
    Senator Johnson. I will ask you the same question I asked 
the Army. Could you provide the subcommittee with a list of 
potential ECIP projects that could be executed in fiscal year 
2011?
    Mr. Yonkers. Yes, sir, we would be happy to do that.
    [The information follows:]

    The following are the potential unfunded ECIP projects for the Air 
Force:

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                      Installation/                                                 Programmed
              MAJCOM                     activity              State         Project description      amount
----------------------------------------------------------------------------------------------------------------
USAFE............................  Ramstein...........  GE.................  Install                        $765
                                                                              Photovoltaic
                                                                              System.
USAFE............................  Ramstein...........  GE.................  Install                         719
                                                                              Photovoltaic
                                                                              System.
USAFE............................  Ramstein...........  GE.................  Install                         520
                                                                              Photovoltaic
                                                                              System.
USAFE............................  Ramstein...........  GE.................  Install                         494
                                                                              Photovoltaic
                                                                              System.
ANG..............................  Atlantic City......  NJ.................  Photovoltaic                  3,700
                                                                              Generation System.
AMC..............................  McGuire............  NJ.................  (MEBI) Install                1,519
                                                                              Solar Panels at
                                                                              Fitness Center.
USAFE............................  Lajes Field........  PO.................  Replace & Upgrade             1,110
                                                                              Water SCADA & EMCS.
USAFE............................  Lajes Field........  PO.................  Repair Water                    600
                                                                              Service Lines,
                                                                              Multi.
USAFE............................  Moron..............  SP.................  Install Non Potable           1,200
                                                                              Water System.
ACC..............................  Eglin..............  FL.................  Leak Detection &                750
                                                                              Repair.
AETC.............................  Tyndall............  FL.................  Reclaimed Water               3,255
                                                                              Irrigation.
AFSC.............................  Thule..............  GR.................  EMCS...............           4,500
PACAF............................  Elmendorf..........  AK.................  HVAC Retro                    2,830
                                                                              commission Ph-1.
ACC..............................  Eglin..............  FL.................  DDC Energy Mgnt               6,724
                                                                              System Upgrade.
AFMC.............................  Hanscom............  MA.................  Repair Chiller                1,950
                                                                              Controls B1201.
ACC..............................  Grand Forks........  ND.................  Replace Interior              1,316
                                                                              Lighting.
AETC.............................  Randolph...........  TX.................  Cns Chiller/TES               1,200
                                                                              Plant.
AFMC.............................  Arnold.............  TN.................  Test Area Energy                821
                                                                              Improvements.
ACC..............................  Mountain Home......  ID.................  Repair Infrared               1,180
                                                                              Heaters, Multi
                                                                              facilities.
AETC.............................  Randolph...........  TX.................  B395 Thermal Energy           1,527
                                                                              Storage (TES).
AETC.............................  Lackland...........  TX.................  Construct a Chiller/          2,800
                                                                              TES Plant.
AETC.............................  Lackland...........  TX.................  Install Thermal               1,110
                                                                              Storage Energy
                                                                              Tank B7429.
AFMC.............................  Kirtland...........  NM.................  ECIP Solar-LED                1,850
                                                                              Retrofits for
                                                                              Street, Parking &
                                                                              Runway Lights.
AMC..............................  McGuire............  NJ.................  (MEBI) Install                1,519
                                                                              Solar Panels @
                                                                              Fitness Center.
AMC..............................  McGuire............  NJ.................  Install Solar Wall            1,150
                                                                              Bldgs 3210/3211/
                                                                              3101.
AFSPC............................  Los Angeles........  CA.................  ECIP--Photo Voltaic           1,082
                                                                              System, B/286,
                                                                              Fitness Center
                                                                              Roof.
AFSPC............................  Los Angeles........  CA.................  Solar Roof System,            1,050
                                                                              B/271, LAAFB.
AFSPC............................  Los Angeles........  CA.................  Solar Roof System,            1,050
                                                                              B/270, LAAFB.
AFSPC............................  Los Angeles........  CA.................  Solar Roof System,            1,442
                                                                              B/272, LAAFB.
AFSPC............................  Los Angeles........  CA.................  ECIP--Photo Voltaic           1,347
                                                                              Parking Canopy,
                                                                              South, LAAFB.
AFSPC............................  Los Angeles........  CA.................  ECIP--Photo Voltaic           2,191
                                                                              Parking Canopy,
                                                                              West, LAAFB.
AFSPC............................  F.E. Warren........  WY.................  Decentralize Base            14,008
                                                                              Central Heat Plant.
AFMC.............................  Hill Air Force       UT.................  ECIP--Conv & RPR              2,365
                                    Base.                                     1700 Area Bldgs &
                                                                              Dist Sys To
                                                                              Natural Gas.
AFSPC............................  Cape Cod Air Force   MA.................  Install Two Wind             13,000
                                    Station.                                  Turbines/Support
                                                                              System.
----------------------------------------------------------------------------------------------------------------

    Senator Johnson. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                              MAINE MILCON

    General Moisio, as I was preparing for this hearing, I 
noted that the fiscal year 2011 budget proposal contains 
requests from the Air National Guard for funding for two 
military construction projects that include two new SCIFs, the 
secure facilities, at a cost of $9.6 million to the taxpayers.
    Ms. Ferguson, I also noted that the Air Force has proposed 
spending more than $221 million on six military construction 
projects that include six new SCIFs.
    At the Air National Guard base in Bangor, Maine, there is a 
28,000 square foot facility that meets all the requirements to 
be a SCIF, but the Air Force will not certify the facility as a 
SCIF until a mission is identified for that building.
    My question, however, is did the Air National Guard review 
current assets, including this facility in Maine, before 
proposing the funding to build brand new additional secure 
facilities?
    General Moisio. Thank you, Senator Collins.
    Yes. We, of course, keep track of all of our $14 billion 
worth of plant value across the Nation and consider it all in 
new mission lay-down. The important thing to understand about 
the new mission lay-down that we are in right now--much of it 
is a result of BRAC. Much of it as a result of other changing 
missions, drawdown in Force structure, and so on, which has not 
affected the 101st, as you know, up in Bangor. They have a 
good, stable tanker mission and will continue to have that 
mission for a long time.
    As time goes on, ma'am, when we continue to have to lay 
down across the Air Force missions that require classified 
facilities--also communication infrastructure is becoming a 
very important aspect--we do consider the existing facilities 
and the existing communication infrastructure when we go 
through our basing actions, as Ms. Ferguson, who runs that 
program, can attest. So it is a factor, ma'am.
    Senator Collins. Secretary Ferguson, was that facility 
considered as the Air Force was putting together its request 
for six additional secure areas?
    Ms. Ferguson. I will have to go back and look at those 
particular six projects, but as General Moisio points out, 
under the new Air Force strategic basing process, that is one 
of the things we consider as we beddown new missions across the 
Air Force.
    Senator Collins. I would encourage both of you to take a 
look at that facility because if it does meet your needs, we 
should use current assets and save some money in this very 
tight budget environment. And I know that you share that 
concern as well.
    [The information follows:]

    After significant reductions in requirements due to the end of the 
cold war, the Air National Guard has reused the majority of the SCIF 
facility. Of the 34,000 square feet, only 6,100 square feet remain 
vacant. Each of the military construction projects with SCIF 
requirements is associated with an existing mission and are already 
established at their current installations. For these current mission 
military construction projects, the benefit of reutilizing an existing 
SCIF at Bangor, Maine is out-weighed by the high cost associated with 
moving the missions to another installation. However, as we previously 
discussed, under the new Air Force strategic basing process, Bangor, 
Maine will be considered as we beddown new missions across the Air 
Force in the future.

    Senator Collins. General, it sounds like you are very aware 
of the role that the air refueling wing of the Air National 
Guard in Maine has been playing in maintaining our air bridge 
to support our warfighters in Iraq and Afghanistan. The last 
time I visited the base, I was told that they actually offload 
more fuel than any other unit on the entire east coast, 
including Active Duty units with the exception of MacDill Air 
Force Base in Florida. So they are playing an absolutely 
essential role. Indeed, if you look just at Guard units, they 
offload more fuel to military aircraft than any other Guard 
unit in the country.
    As you begin the process of deciding where to place the KC-
X aircraft, the tanker that we desperately need to proceed 
with, will one of the primary considerations for basing include 
which aircraft in the inventory are most frequently relied upon 
to support wartime efforts? General?
    General Moisio. Senator Collins, your support of the 101st 
is admirable, as is the case across the Nation with our Guard 
units. It is one thing that makes the job that I have so great, 
is to hear the pride of Senators and Congressmen regarding 
their Guard units.
    It is a true statement that the 101st is tops on the east 
coast in offload. It makes sense, closest to the air bridge 
across the Atlantic. So a very, very strategic point for us to 
have a tanker unit in the Air National Guard, and there is, I 
would hope, little doubt in my mind that that would continue 
for a long, long time.
    In terms of competing for KC-X, I believe that the 
Northeast Tanker Task Force will undoubtedly be involved in 
some way in the initial beddown of KC-X. We will go through the 
normal basing process, and in my mind, the most important 
attribute of the 101st that will show up in the basing process 
is its location and the fact of the Northeast Tanker Task 
Force. So the competition will be fair. It will be transparent, 
and I know that the 101st in Bangor will compete.
    Senator Collins. Thank you. Thank you, Mr. Chairman. Thank 
you all.
    Senator Johnson. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

               ENERGY EFFICIENCY AT ALASKA INSTALLATIONS

    Secretary Yonkers, I understand that you are in the process 
now of preparing a paper for me at my request on the future of 
the Polar Star Housing. This is the privatized housing in 
Eielson. I will look forward to receiving that paper and the 
opportunity for future dialogue on that. We would like to see, 
of course, positive resolution of this, but I understand that 
that is something that you are working to produce for me. So I 
will look forward to that. And I do not know. It looks like 
you, Secretary Ferguson, will be the one that will be working 
on it.
    Mr. Yonkers. Actually she is the one that works these types 
of military family housing privatization issues, and I would be 
completely lost without her, as you probably know.
    I mean, there is much more to come, and we will be more 
than happy to not only provide the paper but respond to any 
questions, concerns, Madam, that you have.
    Senator Murkowski. I appreciate that.
    Let me ask you. You have mentioned the impact of energy 
usage and what we do to deal with our high energy costs. 
Congress had appropriated some substantial funding for the Air 
Force to consider locating a coal-to-liquids plant on or near 
Eielson to take advantage of the coal reserves that we have in 
interior Alaska and offer the Air Force an alternative source 
of jet fuel.
    We have, of course, heard that the concept of coal-to-
liquids, which was really quite popular in the last 
administration, has now kind of gone out of vogue within this 
administration, even if we can address the carbon capture 
issues.
    The question to you this morning is whether the Air Force 
intends to pursue a coal-to-liquids plant at Eielson and what 
is the timeline then for any decision-making in this order.
    Mr. Yonkers. Ma'am, thank you for your question, and I know 
you are personally very interested in this and your 
observations are right on target with regard to coal-to-liquid.
    You know very well, I am sure, that the earmarks that we 
received are being utilized for the purposes under which they 
were intended to look at the feasibility and financial 
viability of a coal-to-liquids facility at or near Eielson. We 
are already in the process, as you probably know as well, of 
looking at the business case analysis particularly to see if an 
enhanced use lease would be appropriate for such activities and 
be financially viable for such activities.
    In conjunction with that, the civil engineering squadron 
there is looking at the mission impacts and the environmental 
impact analysis to pull that information together.
    And then the Air Force research labs down at Wright 
Patterson are considering things such as carbon sequestration 
and how that will play amongst the energy alternatives as we 
look at the broad scope of whether or not coal-to-liquid is 
really a viable option there at Eielson.
    Once we get the information from those reports back and we 
can massage that a bit, and if we do, in fact, find that it is 
a viable alternative, our intent is to get with the Department 
of Defense, along with, we hope, prospective developers, 
companies that would be interested in implementing this, and 
see where we go from there.
    Senator Murkowski. Well, we would like to work with you on 
this. Obviously, the cost of energy is a key issue up there, 
but even more so, the opportunity to provide the Air Force with 
a fuel source that could be ready and affordable is something 
that we all want to focus on.
    Mr. Yonkers. Yes, ma'am.

                         NEW TANKERS IN ALASKA

    Senator Murkowski. General, let me ask you. You spoke about 
the possibility of the KC-X for the 101st there in Maine. Does 
the same possibly apply to the 168th Wing at Eielson which has 
the significant responsibility for fueling in the Pacific?
    General Moisio. Absolutely, ma'am. I really should let Ms. 
Ferguson address the overall process, but hopefully you all are 
aware of the process that the Air Force has adopted over the 
last year to base new systems. But the process is open, 
transparent, repeatable, and when we are bedding down a system 
such as F-35s, such as KC-X soon, we look enterprise-wide at 
Air Force bases and grade them on a set of criteria that are 
developed by the gaining major command. And I am convinced that 
it is a very fair process.
    Senator Murkowski. One final question, and this is your 
soft ball for the morning and gives you a chance to do a little 
bit of bragging. In just a few weeks here, the Elmendorf Air 
Force Base is slated to receive the Commander-in-Chief Award 
from the Secretary of Defense. This is a pretty big deal. We 
certainly feel so. As one who represented Elmendorf in our 
State legislature, it is even more a particular point of pride. 
But it really means that Elmendorf is truly the best of the 
best in the Air Force.
    So the question to you this morning, Secretary, is what did 
Elmendorf do to achieve this distinction, and how will the Air 
Force celebrate Elmendorf's accomplishments?
    Mr. Yonkers. Well, you know, I will go back to some of the 
previous conversations with the pride and enthusiasm that you 
all bring to the table with regard to those air bases that are 
in your State. It is really gratifying to me as sort of a 
retread coming back into the Air Force just recently to see 
this. I mean, this was one of the things that I really missed 
when I left 8 years ago.
    It is a big deal. It is truly a big deal for Elmendorf to 
be able to go through a rigorous competition amongst every air 
base that we have in the 50 States and all those major 
commands. There are 166 air bases that Elmendorf was in the mix 
with. And as you say, Senator, Elmendorf came out on top.
    There is going to be at least one, if not several award 
assemblies that are going to recognize that accomplishment. 
When those folks from Elmendorf stand up in front of the 
Secretary and the Chief and receive that award, I think it is 
going to be a great day and there is going to be just a lot of 
fun and enthusiasm and pride from the people down at the 
installation level that made that happen.
    Senator Murkowski. We look forward to recognizing their 
accomplishments because they are significant. They are 
receiving the Commander in Chief Award, but this has been a 
pretty good year for them. They have received a whole handful 
of national recognitions, and we are really quite proud, as we 
are of all our men and women in uniform, but there are 
significant accomplishments that we want to celebrate. So thank 
you.
    Thank you, Mr. Chairman.
    Mr. Yonkers. Thank you, ma'am.
    Senator Johnson. Thank you.
    I would like to thank all of our witnesses for appearing 
before the subcommittee today. We look forward to working with 
you this year.
    For the information of members, questions for the record 
should be submitted by the close of business on April 29.

                         CONCLUSION OF HEARINGS

    Senator Johnson. This hearing is recessed.
    [Whereupon, at 11:06 a.m., Thursday, April 22, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
